  AUDIT OF THE UNITED STATES
MARSHALS SERVICE’S OVERSIGHT OF
ITS JUDICIAL FACILITIES SECURITY
            PROGRAM

        U.S. Department of Justice
      Office of the Inspector General
               Audit Division

           Audit Report 11-02
            November 2010
This page intentionally left blank.
    AUDIT OF THE UNITED STATES MARSHALS SERVICE’S
         OVERSIGHT OF ITS JUDICIAL FACILITIES
                  SECURITY PROGRAM

                            EXECUTIVE SUMMARY

      The United States Marshals Service (USMS) is the primary provider of
court security services to the federal judiciary. The USMS’s Judicial Facilities
Security Program, which is administered by USMS headquarters and funded
by the federal judiciary, provides 2 main services to more than 400 U.S.
federal court facilities nationwide: (1) court security officers (CSO), and
(2) security systems and equipment, including X-ray machines, surveillance
cameras, duress alarms, and judicial chambers entry control devices. The
CSOs deployed by the USMS to federal court facilities are contract workers
procured through contracts with private security firms in each of the
12 federal judicial circuits. As of June 2010, over 5,000 CSOs were assigned
to federal court facilities throughout the United States. As with CSOs, the
security systems obtained by the USMS are also obtained through a contract
with a private security provider. The USMS seeks to ensure the safety of
federal court facilities and judicial proceedings through the use of the CSO
program and the security systems it deploys. In fiscal year (FY) 2009,
approximately $370 million were allocated by the federal judiciary for the
USMS’s court security services.

       The USMS’s Judicial Security Division is primarily responsible for
administering the Judicial Facilities Security Program, including management
and oversight of the CSO program, USMS security systems, and related
contracts. According to the USMS, CSOs are experienced former law
enforcement officers who receive limited deputations as special Deputy U.S.
Marshals. Using USMS security screening systems CSOs are responsible for
detecting and intercepting weapons and other prohibited items from
individuals attempting to bring them into federal courthouses. Along with
Deputy U.S. Marshals, CSOs also assist in providing security at facilities that
house federal court operations. 1




       1
         Deputy U.S. Marshals are full-time USMS employees who carry out multiple
missions including, apprehending federal fugitives, protecting the federal judiciary,
operating the USMS’s Witness Security Program, transporting federal prisoners, and seizing
property acquired by criminals through illegal activities.

                                           -i-
OIG Audit Approach

       The objective of this audit was to assess the USMS’s oversight of its
Judicial Facilities Security Program. To accomplish our objective, we
interviewed USMS headquarters officials, reviewed USMS policies and
procedures, and obtained and analyzed data pertinent to the USMS’s court
security programs, including a review of CSO personnel files. We also
reviewed the procurement process for a CSO contractor whose contract was
later terminated. Additionally, we conducted field work at six USMS district
offices. At each district office location, we interviewed the local Judicial
Security Inspector, obtained documents pertinent to local court security
operations, received a tour of the court facilities, and interviewed members
of the federal judiciary. Finally, we disseminated a questionnaire to the
Judicial Security Inspectors in each USMS district office concerning
management of the CSO contracts and security equipment.

      This report first provides an assessment of the USMS’s efforts to
secure federal court facilities. The sections that follow assess the USMS’s
oversight of its CSO program, security systems, and related contracts. This
report provides 15 recommendations to the USMS to help improve its
Judicial Facilities Security Program.

Results in Brief

        We found weaknesses in the USMS’s efforts to secure federal court
facilities in the six USMS district offices we visited. In two districts we found
non-functioning Court Security Committees and in three districts the Chief
Judges expressed concerns related to the physical security of courthouses.

      Additionally, we found that not all Judicial Security Inspectors and
CSOs have been fully trained on the use of security screening equipment.
Three of the six USMS district offices failed to conduct the quarterly testing
required by USMS policy regarding security procedures to screen visitors,
packages, and mail delivered to the courthouses. In February 2009,
multiple USMS district offices failed to detect mock explosive devices sent by
USMS headquarters to the district offices for local testing purposes.

      Our review also found that the USMS’s management of its CSO
contracts needs improvement. We found that the USMS’s Office of Security
Contracts awarded a contract worth about $300 million to a CSO contractor
with a history of fraudulent activities. This contract was awarded despite a
fraud alert issued by the Department of Justice Office of the Inspector
General (DOJ OIG) Investigations Division. Ultimately, the contractor went


                                      - ii -
bankrupt, leaving many CSOs temporarily without payment for their
services.

       We also identified issues with the USMS’s maintenance of CSO
personnel files. Through our review of a sample of 60 CSO personnel files
we found that 2 percent lacked the required medical examination records
and 63 percent contained out-of-date medical examination records. In
addition, 18 percent lacked the required firearms qualification records and
47 percent of the firearms qualifications were out of date. Our limited file
review presents serious concerns about the medical and firearms
qualifications for CSOs.

      This audit makes 15 recommendations to help the USMS improve the
management of its Judicial Facilities Security Program. The remaining
sections of this Executive Summary provide a further description of our audit
findings.

USMS Efforts to Secure Federal Court Facilities

      In this audit we conducted field work at six judicial districts throughout
the United States. We visited multiple courthouse locations at five of these
six judicial districts and interviewed key personnel, including Judicial
Security Inspectors, Chief Deputy Marshals, Deputy U.S. Marshals, and
members of the federal judiciary, including Chief Judges.

Physical Security

      Our audit identified weaknesses in the USMS’s efforts to protect the
physical security of federal court facilities in some of the six judicial districts
we visited. For example, in one district we were informed that the judicial
security plan had not been updated since 1983. 2 In another district, we
found that the Continuity of Operations Plan was not updated as required. 3


       2
           USMS policy directives require that each district office conduct an annual security
survey of every judicial facility within the district to assess current conditions. Based upon
results of this survey, the district must develop or update a judicial security plan for each
facility, which should be designed to ensure that USMS employees respond quickly and
effectively to judicial security needs at various risk levels when there are actual threats.
       3
         Homeland Security Presidential Directive 20 requires that all executive
departments and agencies maintain a Continuity of Operations Plan that ensures that
primary mission essential functions continue to be performed during a wide range of
emergencies, including localized acts of nature, accidents, and technological or attack-
related emergencies.


                                             - iii -
In two other districts, we were unable to determine when the last update to
the Continuity of Operations Plans occurred. 4

       Further, USMS policy directives state that each district office shall
assign a principal coordinator to the local district Court Security Committee,
which is responsible for assessing the adequacy of district-wide court
security, ensuring the effective and efficient use of court security resources,
and ensuring that there is an effective emergency preparedness program in
place. In one district, the Court Security Committee was not functioning as
required because it was not meeting regularly. The Chief Judge in that
district stated that the Court Security Committee was generally not holding
meetings due to poor communication between the USMS and the judiciary.
In another district we visited, a Court Security Committee did not exist.

       In addition, to assess the judiciary’s level of satisfaction on general
physical court security matters in each of the six judicial districts we visited,
we interviewed members of the judiciary and judicial staff members in those
districts. In one district, the Chief Judge was generally dissatisfied with the
physical security of the building and expressed concerns over whether
adequate security was being provided at entry checkpoints, including the
public building entrance, parking garage, and judge’s entrance. He stated
that he did not believe that the CSOs provided adequate security for the
building and that improved CSO training is necessary. In another district,
the Chief Judge said that funding and manpower limitations have negatively
affected the quality and level of court security provided by the USMS. In a
third district, the Chief Judge and his assistant believed that inspections of
trucks entering the courthouse are poorly conducted, which jeopardizes the
safety of the facility.

Training on Security Screening Equipment

      The USMS relies on the use of security screening equipment, such as
Itemisers, metal detectors, and X-ray machines at courthouse facilities to
prevent the introduction of weapons, explosives, and other contraband. 5
CSOs are responsible for operating this screening equipment and therefore
must be trained adequately on its use.

     The training curriculum for CSOs includes a basic orientation training
course (Phase I), and a 3-day orientation course conducted at the Federal
Law Enforcement Training Center (Phase II). A USMS official informed us

       4
         Federal Continuity Directive 1 requires a minimum of an annual review of the
Continuity of Operations Plan with updates throughout the year as necessary.
       5
           Itemisers are explosives and narcotics detection devices.

                                             - iv -
that Phase II training is not always conducted before CSOs begin work, and
this individual expressed concern that as a result, some CSOs lack the
technical training needed to operate screening equipment deployed to
courthouse facilities. Moreover, the USMS has no system to ensure that
Judicial Security Inspectors and CSOs are adequately trained on newly
deployed equipment. As a result, we found instances where security
features of new equipment were not being used in districts, partly, because
no one had received training on the features.

Testing of Security Procedures

       USMS policy requires that Judicial Security Inspectors in each district
office conduct quarterly unannounced tests to determine if CSOs are
adequately screening visitors, packages, and mail that are delivered to the
courthouse. 6 Our audit found that quarterly unannounced tests were not
being regularly conducted at three of the six districts we visited. Without
consistent application of this policy, the courthouses in these districts can
become more vulnerable to security breaches.

      In addition, in February 2009, the USMS Office of Security Systems
scheduled the shipment of testing kits to each of the USMS district offices
that contained mock explosive devices to be used in local testing exercises.
Although the shipment of these testing kits was not intended to be a formal
testing exercise, several of these mock devices were not detected when the
packages were screened at the local district offices. We believe that the
results of this unintended test emphasize the need for the USMS to ensure
that CSOs are properly trained on security equipment and procedures.

Incidents and Arrests

      The USMS maintains data on arrests and other incidents, such as
attempts to bring illegal weapons or contraband into court facilities, bomb
threats, and assaults. This data is collected at the district level and reported
to the USMS Office of Court Security.

       However, we found that not all district offices are regularly reporting
their data on incidents and arrests and little analysis is conducted by the
USMS on the data that is collected. We believe that the USMS should ensure
that all USMS districts are reporting the data as required. Further, the USMS

       6
          USMS Directives state that each district should conduct an unannounced
examination of the security of each court facility at least four times a year. According to
this directive, the tests should be conducted at random and by persons unknown to the
court security officers at the facility, and each district should report its findings to the
Judicial Security Division.

                                             -v-
should periodically analyze incidents and arrests to identify trends, such as
the use of certain weapons or increased incidences of suspicious vehicles
identified at federal courthouse locations. This could allow for better
planning in the deployment of screening equipment, building design, and
staffing. We also believe that such information and analysis could be
valuable to the federal judiciary and would help ensure that the judiciary is
better aware of potential security threats.

Management of Security Contracts and the Court Security Officer
Program

      The USMS had a contract force of over 5,000 CSOs deployed at federal
court facilities throughout the United States as of June 2010. The USMS
currently has 12 primary security contracts that provide for CSO services in
each of the 12 federal judicial circuits. 7 As discussed below, our review
found that the USMS’s management of its court security contracts needs
improvement.

USMS Oversight of the CSO Contract Procurement Process

       Our review found that the USMS’s Office of Security Contracts did not
follow USMS procurement policy. For example, in September 2006 the
USMS awarded 3 of its 12 primary CSO contracts to 1 security guard
company named USProtect Corporation (USProtect). The 3 CSO contracts
awarded to USProtect totaled about $300 million, covered federal court
operations in 3 of the 12 federal judicial circuits, and involved the hiring,
training, and supervision of approximately 800 CSOs. Two months prior to
the USMS’s selection of USProtect, the DOJ OIG issued a fraud alert to the
USMS regarding USProtect that included the information from a 2005 fraud
alert issued by the Social Security Administration Office of the Inspector
General (SSA OIG). The SSA OIG alert outlined a history of fraud related to
USProtect covering a 12-year period. This history included multiple fraud
convictions and civil judgments against its Chief Financial Officer, including
criminal convictions for mail fraud, submitting false insurance claims, and
bank fraud, as well as six fraud-related civil judgments totaling more than
$1.4 million. Despite the fraud alert, the USMS awarded the contract
to USProtect. 8 USProtect later filed for Chapter 7 bankruptcy protection

       7
         In addition to the 12 primary contracts, the USMS has set aside contracts for the
Northern District of Florida and the Central District of Illinois for 8(a) awards, which are
contracts awarded to small businesses owned and controlled by socially and economically
disadvantaged individuals.
       8
         At the conclusion of this audit, the USMS informed us that the contracting officer
responsible for this contract is no longer employed by the USMS.

                                            - vi -
after the USMS and other federal agencies decided not to renew their
contracts amid allegations of fraud and mismanagement. This left many
CSOs temporarily without compensation for their services.

       On June 17, 2009, the DOJ OIG issued another advisory to the USMS
related to deficiencies in the USMS contract award process as demonstrated
by its selection of USProtect. 9 The USMS responded to this advisory on
July 28, 2009, outlining procedures that it would adopt to address the issues
discussed in the advisory. For instance, the USMS has agreed to provide
additional training for members of its Technical Evaluation Board, as well as
provide greater oversight of the solicitation review process by the
contracting officer and the General Counsel’s office. 10

       We also determined that the Office of Security Contracts lacks written
policies that establish procedures for maintaining files on the selection of
CSO contractors. According to an Office of Security Contracts official, the
lack of organization of the security contract files makes it difficult for the
USMS to defend against bid protests filed by vendors and claims filed by
contractors. Although the USMS informed us of recent steps that it has
taken to improve its file management system, we believe the USMS should
continue to evaluate its current contract file maintenance practices and
develop procedures to ensure that all necessary documentation is
maintained in a consistent manner. Our audit also determined that the
USMS lacks a streamlined system for tracking CSO work hours. We believe
that a streamlined timekeeping system could decrease the risk of human
error, overbilling by CSO contractors, and fraud.

USMS Management of the Court Security Officer Program

      Our review found that the USMS has failed to conduct timely
background investigations for newly hired CSOs. According to USMS policy,
the USMS performs a background investigation for all CSO applicants prior to
allowing them to work in a federal court facility.

      Background investigations should be completed by the district and
then sent to USMS headquarters for adjudication and approval. USMS policy

       9
            Appendix III contains a copy of the advisory and the USMS’s formal response.
       10
           The Federal Acquisition Regulation requires that the “selection authority shall
establish an evaluation team, tailored for the particular acquisition, that includes
appropriate contracting, legal, logistics, technical, and other expertise to ensure a
comprehensive evaluation of offers.” In this case, the USMS contracting officer appointed a
Technical Evaluation Board consisting of a U.S. Marshal, a Chief Deputy U.S. Marshal, two
Deputy U.S. Marshals, and one employee from the Judicial Security Division.

                                            - vii -
requires that the district office submit background check information and
recommendations to USMS headquarters within 21 days of the district
office’s receipt of the background investigation request. We tested a
judgmental sample of 20 out of 213 CSOs hired between February and
July 2009 and found that 17 of the sample background investigations were
submitted to headquarters for adjudication more than 21 days after the
district office’s receipt of the request, contrary to USMS policy.

       A performance violation includes conduct such as allowing restricted
items to pass through security and leaving firearms unsecured. Although
the USMS maintains data on CSO performance violations, we found that the
USMS does not utilize this data effectively. For example, the USMS does not
analyze performance violation data of CSOs to determine whether issues
related to CSO performance in one circuit were occurring in another.
Additionally, at the time of our field work, the USMS was not analyzing this
data to assess and address potential CSO training needs, although we were
told that the USMS is currently attempting to use this data in developing
future CSO training.

       We also found problems in the USMS’s maintenance of its CSO
personnel files. We reviewed 60 CSO personnel files to determine whether
the files contained up-to-date medical examination records and firearms
qualifications. According to USMS policy, each CSO must obtain an annual
medical examination by a physician designated by the CSO contractor. A
medical officer from the U.S. Public Health Service’s Federal Law
Enforcement Medical Program then reviews the results of the medical
examination and determines whether the CSO is qualified to perform CSO
job functions. In addition, each CSO must qualify annually to carry a firearm
by taking a firearms proficiency test.

      Our review found that 1 of the 60 files (2 percent) lacked a medical
examination record and 38 (63 percent) of the medical examination records
in these files were out of date. 11 In addition, we found that 11 of the
60 (18 percent) files lacked firearms qualification records and
28 (47 percent) of the files contained firearms qualification records that were




       11
          The USMS provided us with the 60 CSO personnel files on December 4, 2009.
Because USMS policy requires a CSO to receive an annual medical examination within 1
year of the previous examination, we considered a CSO personnel file to contain out-of-date
medical examination records if the file did not contain evidence of a medical examination
that occurred between December 3, 2008, and December 4, 2009.


                                          - viii -
out of date. 12 Our limited file review presents serious concerns about the
medical and firearms qualifications for CSOs.

Management of Security Systems and Security System Contracts

       The USMS’s nationwide security systems contract covers the purchase,
installation, and maintenance of security systems, including duress and
intruder alarms, closed-circuit televisions, intercoms, and access-control
systems for federal courthouses. The Contracting Officer’s Technical
Representatives (COTR) for the nationwide security systems contract are
located at USMS headquarters, but the district Judicial Security Inspectors
are generally responsible for managing the day-to-day oversight of the
contract in the district offices. 13 For example, if a security camera needed to
be installed at a court facility and the contractor sends someone to perform
the work, the Judicial Security Inspector in that district typically certifies that
the work was performed. However, despite USMS policy, we found that
these certifications typically state only that the work was completed, not
how much time was spent on the project. Because labor hours are not
consistently monitored or tracked it is difficult for the USMS to ensure that
labor hours claimed under the contract were actually worked by the
contractor.

       In addition to the security systems obtained through the nationwide
security systems contract, the USMS also acquires security screening
equipment, including X-ray machines, walkthrough metal detectors, and
explosives detection units, through various procurement methods. This
screening equipment is not purchased under a specific USMS contract and is
maintained by the USMS. The USMS has no maintenance agreements for
the millions of dollars worth of sophisticated screening equipment deployed
at court facilities throughout the country. During our review, we found that
when X-ray machines and metal detectors were in need of repair they were
out of service anywhere from 1 day to several weeks. According to an Office
of Security Systems official, the USMS previously conducted an analysis and
determined that maintenance plans for this type of equipment were not cost
effective. However, this official also told us that he was unsure whether the
USMS was assessing the impact of downtime on court security. We
recommend that the USMS track the cost of repairs for its screening

       12
           The USMS provided us with the 60 CSO personnel files on December 4, 2009.
Because USMS policy requires a CSO to qualify on their firearm once per calendar year, we
considered a CSO personnel file to contain an outdated firearms qualification record if the
file lacked a record for calendar years 2008 and 2009.
       13
          According to the USMS, all Judicial Security Inspectors receive COTR training and
are required to be recertified every 2 years.

                                           - ix -
equipment and the impact of downtime on court security in order to
periodically assess whether a maintenance plan for such screening
equipment would be cost effective. By periodically reassessing the need for
a maintenance plan, the USMS can ensure that the most cost-effective
method is being used for maintenance of these items.


Recommendations

     Based on our findings, this audit provides 15 recommendations to
improve the USMS’s oversight of its Judicial Facilities Security Program.
Those recommendations are that the USMS:

      1. Ensure that all USMS district offices regularly review and update
         their Continuity of Operations Plans and ensure that annual security
         surveys are performed at each district and that all judicial security
         plans are updated as required.

      2. Ensure that all of its district offices assign a principal coordinator to
         the district Court Security Committee and encourage the local
         judiciary to lead regular meetings.

      3. Ensure that all Judicial Security Inspectors and CSOs are
         appropriately trained before entering on duty. The USMS should
         also develop a process to ensure that all Judicial Security Inspectors
         and CSOs are adequately trained on newly deployed screening
         systems.

      4. Ensure that its district offices perform the required quarterly
         unannounced tests to determine if CSOs are adequately screening
         visitors, packages, and mail that are delivered to the courthouse
         and maintain records of the results.

      5. Ensure that all district offices report incidents and arrests at
         courthouse facilities as required and conduct a coordinated periodic
         analysis of the data each fiscal year.

      6. Continue to evaluate its current contract file maintenance practices
         and develop procedures to ensure that all necessary documentation
         is maintained in a consistent manner.

      7. Seek to streamline its current timekeeping practices for CSOs.



                                      -x-
 8. Perform a comprehensive review of its background investigation
    process for CSOs and seek to ensure that these investigations are
    completed in a timely manner.

 9. Develop a method for analyzing its performance violation data to
    better understand violation trends and potential training needs
    among its CSO workforce.

10. Provide additional guidance to district Judicial Security Inspectors to
    ensure that all CSO performance violations are documented and
    reported to the Office of Court Security.

11. Evaluate its CSO personnel file maintenance practices and develop
    procedures to ensure that all necessary documentation, such as
    medical and firearms qualifications, is adequately maintained and
    up to date. In addition, the USMS should assess the feasibility of
    implementing an automated system for tracking important dates in
    the database to ensure that CSOs satisfy their qualification
    requirements in a timely manner.

12. Require district offices to supervise and verify labor hours claimed
    by contractors to help ensure that it is not being overbilled under
    the nationwide security systems contract.

13. Assess the feasibility of district offices maintaining their own
    security system equipment inventories of equipment maintained by
    the contractor so that comparisons can be made to the contractor’s
    inventory to avoid unwarranted maintenance fees.

14. Track the cost of repairs for its screening equipment and the impact
    of downtime on court security in order to periodically assess
    whether a maintenance plan for its screening equipment would be
    cost effective.

15. Require the Office of Security Contracts to prepare past
    performance and interim evaluations in accordance with the Federal
    Acquisition Regulation.




                                - xi -
This page intentionally left blank.
           THE UNITED STATES MARSHALS SERVICE’S
    OVERSIGHT OF ITS JUDICIAL FACILITIES SECURITY PROGRAM

                                 TABLE OF CONTENTS

INTRODUCTION ........................................................................ 1

Prior OIG Reports ..................................................................... 3

OIG Audit Approach .................................................................. 3

USMS Efforts to Secure Federal Court Facilities ........................ 4
    Physical Security ................................................................. 4
    Training on Security Screening Equipment .............................. 6
    Testing of Security Procedures .............................................. 8
    Incidents and Arrests ..........................................................11
    Conclusion and Recommendations ........................................12

Management of Security Contracts and the Court Security
    Officer Program ............................................................. 13
    USMS Oversight of the CSO Contract Procurement Process......14
    Security Contract File Management ......................................16
    USMS Management of the Court Security Officer Program .......17
    Conclusion and Recommendations ........................................23

Management of Security Systems and Security System
    Contracts........................................................................ 24
    Oversight of the Nationwide Security Systems Contract ..........25
    Oversight of Security System Inventory and Maintenance .......25
    Maintenance of Screening Equipment....................................26
    Oversight of Contractor Performance ....................................27
    Conclusion and Recommendations ........................................28

STATEMENT ON INTERNAL CONTROLS .................................... 30

STATEMENT ON COMPLIANCE WITH LAWS
    AND REGULATIONS ........................................................ 31

APPENDIX I:          OBJECTIVE, SCOPE, AND METHODOLOGY........ 32

APPENDIX II:         PRIOR OIG REPORTS ...................................... 34
APPENDIX III: OIG MANAGEMENT ADVISORY
    MEMORANDUM AND USMS RESPONSE ............................ 37

APPENDIX IV: USMS RESPONSE TO THE DRAFT REPORT ....... 52

APPENDIX V: OFFICE OF THE INSPECTOR GENERAL
    ANALYSIS AND SUMMARY OF ACTIONS NECESSARY
    TO CLOSE THE REPORT................................................... 58
        THE UNITED STATES MARSHALS SERVICE’S
     OVERSIGHT OF ITS JUDICIAL FACILITIES SECURITY
                       PROGRAM

                                 INTRODUCTION

        The United States Marshals Service (USMS) provides court security
services to federal court facilities. The USMS’s Judicial Facilities Security
Program, which is administered by USMS headquarters and funded by the
federal judiciary, provides 2 main services to more than 400 federal court
facilities nationwide: (1) court security officers (CSO), and (2) security
systems and equipment, including X-ray machines, surveillance cameras,
duress alarms, and judicial chambers entry control devices. The CSOs
deployed by the USMS to federal court facilities are contract workers
procured through contracts with private security firms in each of the
12 federal judicial circuits. As of June 2010, over 5,000 CSOs were assigned
to federal court facilities throughout the United States. As with CSOs, the
security systems obtained by the USMS are also obtained through a contract
with a private security provider. The USMS seeks to ensure the safety of
federal court facilities and judicial proceedings through the use of the CSO
program and the security systems it deploys. In fiscal year (FY) 2009,
approximately $370 million were allocated by the federal judiciary for these
court security services.

      The USMS’s Judicial Services component of the Judicial Security
Division is primarily responsible for administering the Judicial Facilities
Security Program, including oversight of the CSO program and management
of USMS security systems and contracts. According to the USMS, CSOs are
experienced former law enforcement officers who receive limited deputations
as special Deputy U.S. Marshals. Using USMS security screening systems,
CSOs are responsible for detecting and intercepting weapons and other
prohibited items from individuals attempting to bring them into federal
courthouses. Along with Deputy U.S. Marshals, CSOs also assist in providing
security at facilities that house federal court operations. 14 The organization
chart for the Judicial Security Division follows.




       14
          Deputy U.S. Marshals are full-time USMS employees who carry out multiple
missions including, apprehending federal fugitives, protecting the federal judiciary,
operating the USMS’s Witness Security Program, transporting federal prisoners, and seizing
property acquired by criminals through illegal activities.

                                          -1-
                                   Exhibit 1
                         USMS Judicial Security Division




Source: USMS

      The Office of Court Security determines resource needs and provides
operational guidance to USMS employees responsible for managing the CSO
program in the USMS districts. This office is also responsible for developing
and coordinating in-service training for CSOs, as well as developing and
coordinating training for Judicial Security Inspectors. CSOs are supervised
by Judicial Security Inspectors in each of the USMS district offices. There
are 108 Judicial Security Inspectors, with at least 1 Judicial Security
Inspector in each of the 94 USMS districts. 15

     The Office of Security Systems’ responsibilities include the purchase,
deployment, and installation of security systems at federal court facilities.
These security systems include duress and intruder alarms, closed-circuit


       15
           Judicial Security Inspectors manage CSO contract operations in their respective
districts. These Judicial Security Inspectors are Deputy U.S. Marshals who have been
delegated the responsibilities of a Contracting Officer’s Technical Representative for the CSO
contracts in their district.


                                            -2-
televisions, intercoms, and access-control systems for federal courthouses.
The Office of Security Systems also monitors contractor performance on the
USMS’s nationwide security systems contract. Currently, six of the Office of
Security Systems security specialists serve as Contracting Officer’s Technical
Representatives (COTR), who coordinate with the 108 district Judicial
Security Inspectors to manage the day-to-day use of security systems,
including maintenance, installation, and inventory control. In August 2010,
the USMS informed us that an additional three security specialists would
soon be receiving COTR certificates, resulting in a total of nine security
specialists managing the day-to-day activities on the nationwide security
systems contract.

      The Office of Security Contracts handles procurement activities for the
Judicial Security Division and coordinates with both the Office of Court
Security and the Office of Security Systems in the procurement of CSO
contracts and security systems.

Prior OIG Reports

       In recent years, the OIG has conducted reviews related to the USMS’s
efforts to protect court personnel and facilities. In 2000, the OIG issued an
audit report on the USMS’s Court Security Officer Program, which found that
the training of CSOs was inadequate, unannounced testing of screening
check points was not conducted as required, and security clearances and
medical certifications were not consistently maintained at the district level.
In 2005, the OIG examined background investigations conducted by the
USMS and found that the USMS did not conduct routine re-investigations of
CSOs unless it became aware of misconduct issues that required disciplinary
action. Because CSOs carry firearms, protect the judiciary, and are granted
unescorted access to court facilities, the OIG recommended that the USMS
reinvestigate contractors who are assigned law enforcement duties every
5 years. In 2009, the OIG reviewed the USMS’s response to threats against
the members of the federal judiciary and United States Attorneys. That
review concluded that the USMS did not consistently provide an appropriate
response for the risk level posed by the threat. In addition, the report found
that the USMS did not fully or effectively coordinate with other law
enforcement agencies to respond to threats against federal judicial officials.
Appendix II contains additional detailed information regarding the results of
these OIG-led reviews.

OIG Audit Approach

      The objective of this audit was to assess the USMS’s oversight of its
Judicial Facilities Security Program. To accomplish our objective we


                                     -3-
interviewed USMS headquarters officials, reviewed USMS policies and
procedures, and obtained and analyzed data pertinent to the USMS’s court
security programs, including a review of CSO personnel files. We also
conducted an in-depth review of the procurement process for a CSO
contractor whose contract was later terminated. Additionally, we conducted
site work at six USMS district offices. At each district office location, we
interviewed the local Judicial Security Inspector, obtained documents
pertinent to local court security operations, received a tour of the court
facilities, and interviewed members of the federal judiciary, including Chief
Judges. Finally, we disseminated a questionnaire to the Judicial Security
Inspectors in each district office concerning the management of the CSO
contracts and security equipment.

      This report first provides an assessment of the USMS’s efforts to
secure federal court facilities. The sections that follow assess the USMS’s
oversight of its CSO program, security systems, and related contracts. This
report provides 15 recommendations to the USMS to help improve its
Judicial Facilities Security Program.

USMS Efforts to Secure Federal Court Facilities

       Our audit identified weaknesses in the USMS’s efforts to protect
federal court facilities that could compromise the USMS’s ability to ensure
the safety of these facilities. These weaknesses include the USMS’s failure
to: (1) maintain current security plans as required, (2) require CSOs to be
fully trained on screening equipment and security procedures prior to
assuming their duties, (3) consistently test security procedures, and
(4) adequately analyze data on incidents and arrests.

       To assess the USMS’s efforts to protect federal court facilities, we
conducted field work at six judicial districts throughout the United States.
We visited multiple courthouse locations at five of these six judicial districts
and interviewed key personnel including Judicial Security Inspectors, Chief
Deputy Marshals, Deputy U.S. Marshals, and members of the federal
judiciary, including Chief Judges.

Physical Security

       During our visits to federal court facilities we sought to determine
whether the local USMS district office was taking the actions necessary to
protect the physical security of courthouse buildings. At each judicial
district, we assessed the USMS’s maintenance of security plans within the
districts and sought feedback from the local federal judiciary on the USMS’s
handling of general physical court security matters.


                                      -4-
       Maintenance of Security Plans

       All courthouse facilities must follow certain general security standards
in various federal requirements. Homeland Security Presidential Directive 20
requires that all executive departments and agencies maintain a Continuity
of Operations Plan that ensures that primary mission essential functions
continue to be performed during a wide range of emergencies, including
localized acts of nature, accidents, and technological or attack-related
emergencies. A USMS policy directive requires that each district conduct an
annual security survey of every judicial facility within the district to assess
current security conditions. 16 Based upon results of this survey, the district
must develop or update a judicial security plan for each facility that is
designed to ensure that USMS employees respond quickly and effectively to
judicial security needs at various risk levels when there are actual threats.

       Overall, we found weaknesses in some of the judicial districts we
visited in their handling of the requirements described above. In one of the
districts, we found that the Continuity of Operations Plan was not updated as
required. 17 In two other districts, we were unable to determine when the
last update to the Continuity of Operations Plans occurred. In another
district we were informed that the judicial security plan had not been
updated since 1983. Because the judicial security plans should be tailored to
the security challenges of each facility, the failure to maintain this
document, along with the Continuity of Operations Plan, increases the
vulnerability of court facilities.

       Leadership of the District Court Security Committees

       USMS policy directives state that the U.S. Marshal or designee in each
judicial district will be the principal coordinator of a district Court Security
Committee, which is chaired by the federal judiciary and will advise on the
planning, implementation, and continuous review of the court security
program for each federal judicial facility in the district. However, one district
Chief Judge stated that the Court Security Committee was not functioning as
required because it was not meeting regularly. According to the Chief Judge
in that district, the Court Security Committee was generally not holding
meetings due to poor communication between the USMS and the judiciary.

       16
           USMS policy directives state that the U.S. Marshal, or designee, shall ensure that
the district office conducts an annual judicial facility security survey of every judicial facility
within the district to assess current security conditions.
       17
          Federal Continuity Directive 1 requires a minimum of an annual review of the
Continuity of Operations Plan with updates throughout the year as necessary.


                                               -5-
Although the Chief Judge acknowledged that communication between the
parties had begun to improve, at the time of our visit the Court Security
Committee was not holding regular meetings. The Chief Judge expected
that they would hold regular meetings in the near future. In another
district, we were informed that a district Court Security Committee did not
exist.

      Judicial Satisfaction with Physical Security

      To assess the judiciary’s level of satisfaction on general physical court
security matters, we interviewed members of the judiciary and judicial staff
members at each of the six districts we visited. The judiciary and its staff
who we interviewed generally indicated that they felt safe in USMS-protected
buildings and that the USMS was responsive to security concerns. However,
we were informed of specific concerns in three of these districts. For
example, in one district, the Chief Judge noted security concerns at
checkpoints, including the public building entrance, parking garage, and
judge’s entrance. In another district, the Chief Judge stated that the USMS
has been responsive and helpful, but that funding and manpower limitations
have negatively affected the quality and level of court security provided by
the USMS. In yet another district, the Chief Judge described how a
defendant gained access in an unknown way to an interior hallway that
connects to the judicial offices. According to the Chief Judge, although no
harm resulted from this incident, it made him and his staff very
uncomfortable with the level of security provided. The Chief Judge and his
assistant also believed that inspections of trucks entering the courthouse
were poorly conducted and potentially jeopardized the safety of the facility.

      We recommend that the USMS ensure that all district offices regularly
review and update their Continuity of Operations Plans. The USMS should
also ensure that annual security surveys are performed at each district and
that all judicial security plans are updated as required. In addition, the
USMS should ensure that each district office assigns a principal coordinator
to the district Court Security Committee and encourage the local judiciary to
lead regular meetings.

Training on Security Screening Equipment

      The USMS relies on the use of security screening equipment, such as
Itemisers, metal detectors, and X-ray machines, at courthouse facilities to
prevent the introduction of weapons, explosives, and other contraband. 18
CSOs are responsible for operating this screening equipment and therefore,

      18
           Itemisers are explosives and narcotics detection devices.


                                            -6-
we believe that they must be trained adequately on its use. We also believe
that Judicial Security Inspectors should be adequately trained in the use of
this equipment.

       The training curriculum for CSOs currently includes basic orientation
training (Phase I) and a 3-day orientation course conducted at the Federal
Law Enforcement Training Center (Phase II). CSO vendors are also
responsible for providing annual training on security procedures, screening,
and administrative matters.

       CSO vendors are responsible for providing their CSOs with Phase I
training prior to their entry on duty. Phase I training is offered through a
series of videos and handouts and addresses topics such as security
screening and searches. Phase II training, which is intended to be
completed within 1 year of hire, covers multiple topics, including entry point
screening, use of walk-through and hand-held metal detectors, the
Department of Justice deadly force policy, and a review of a CSO’s role in a
weapons of mass destruction event. According to the Office of Court
Security Assistant Chief of Training and Compliance, the USMS would like
CSOs to complete Phase II training before they begin work. However, a
USMS official told us that Phase II training is not always conducted before
CSOs begin work, and this individual expressed concern that as a result,
some CSOs lack the technical training needed to operate screening
equipment deployed to courthouse facilities. At the conclusion of our audit,
the USMS informed us that this CSO training program was recently
redesigned and that implementation of the redesigned program will occur in
FY 2011.

       We also found that there is not a reliable system to ensure that CSOs
are adequately trained on newly deployed equipment. According to three
Judicial Security Inspectors in the districts we visited, when new equipment
is purchased and installed in court facilities, it is the responsibility of the lead
CSO to train the other CSOs on how to operate the equipment. However,
we were informed of an instance when training was not conducted on new X-
ray machines purchased by the USMS. These machines, purchased
beginning in 2003, came equipped with software designed to automatically
detect explosives and weapons. However, the automated detection tool was
not turned on by the vendor and went unused because neither the Judicial
Security Inspectors nor the CSOs in the districts received training on how to
use it. In 2009, we were told that an attorney at one court facility passed
through a security check point with a gun in her bag because of CSO error
and the failure to properly activate the automated detection setting on the
X-ray machine, which could have detected the gun.



                                       -7-
        We were also informed of other instances where CSOs were not
trained on the use of new equipment. For example, in FY 2002, the USMS
spent $8 million to purchase hi-tech explosives detection units, known as
Itemisers. We were told by some USMS officials that the USMS provided
little training or guidance to the district offices on how to utilize the
equipment, which resulted in many of the units not being used or properly
maintained. According to one USMS official, this ultimately led to many
Itemisers falling into a state of disrepair. At the conclusion of our audit,
other USMS officials told us that training was provided to all of the districts
and was not the sole reason for the Itemisers’ state of disrepair. According
to these officials, these machines were prone to failure, the software was
difficult to use, and some districts chose not to use them in the absence of a
policy or protocol for their use.

       According to the USMS, basic training courses for new Judicial Security
Inspectors were held in October and November 2007, August 2008, and
January and March 2010. These sessions were intended to provide an
introduction to the Judicial Security Inspector program, along with providing
the basic fundamentals necessary to serve as a Judicial Security Inspector.
In June 2009, the USMS held for the first time an advanced multi-day
training course for approximately half of its Judicial Security Inspectors,
which included training on screening equipment and other security systems.
The USMS also informed us that online X-ray training was recently
purchased and added as a mandatory requirement for all district Judicial
Security Inspectors. The USMS currently estimates that this training should
be completed by all Judicial Security Inspectors by October 2011.

      We believe that inadequate training on security screening equipment
for Judicial Security Inspectors and CSOs poses a significant risk to the
safety of court personnel and facilities. Therefore, we recommend that
USMS ensure that all Judicial Security Inspectors and CSOs are appropriately
trained on security screening equipment before entering on duty. The USMS
should also develop a process to ensure that all Judicial Security Inspectors
and CSOs are adequately trained on newly deployed screening systems.

Testing of Security Procedures

USMS policy requires that Judicial Security Inspectors in each district office
conduct quarterly unannounced tests to determine if CSOs are adequately
screening visitors, packages, and mail that are delivered to the




                                     -8-
courthouse. 19 However, our audit found that quarterly unannounced tests
were not being regularly conducted at three of the six districts we visited.

       In one of these offices, the Judicial Security Inspector stated that tests
are performed every 6 months instead of quarterly due to problems
obtaining a role player to conduct the test. 20 In another district, only two
tests had been conducted since FY 2007, and in both tests the CSOs had
failed to detect the unallowable weapons as they passed through screening.
According to the Judicial Security Inspector for that district, he was relatively
new to his position and did not understand these tests to be a requirement
while learning his role. The Judicial Security Inspector in a third district
stated that tests had not been performed prior to December 2009 because
he did not have the time to conduct the tests. He also said that he had not
been tasked to perform them. In response to our questions, this Judicial
Security Inspector said that he would soon be considering how to begin
performing the quarterly tests as required.

      We believe that in the absence of the required testing, court facilities
could become more vulnerable to security breaches. We recommend that
USMS headquarters ensure that district offices perform the required
quarterly unannounced tests and maintain records of the results.

       Additional Identified Weakness

       In February 2009, the USMS Office of Security Systems scheduled a
shipment to each of the USMS district offices of testing kits containing mock
explosive devices to be used in local testing exercises. Although the
shipment of these testing kits was not intended to be a formal testing
exercise, several of these mock devices were not detected when the
packages were screened at the local district offices. Upon learning that
several of these mock devices were not detected, USMS headquarters
requested, but did not require, that all district offices report whether the
mock devices went undetected when the package containing the device
arrived in the district. Exhibit 2 reflects the information provided by the
district offices that did report to USMS headquarters and the actions taken in
response.



       19
            USMS Directives state that each district should conduct an unannounced
examination of the security of each court facility at least four times a year, and that these
tests should be conducted at random by persons unknown to the court security officers at
the facility. Each district must report its findings to the Judicial Security Division.
        20
            In this context, a role player is an individual who plays the part of someone
attempting to bring an unallowable item into the building.


                                             -9-
                                  Exhibit 2
                       Performance Violations Related to
                   February 2009 Mock Explosives Shipment 21


       District       Date            Performance Violation             Action Taken
                                 Two CSOs allowed an Improvised           Both CSOs
                                 Explosive Device (IED) Test Kit of a     received a
      District A    2/4/2009     simulated bomb to go through the           3-day
                                 X-ray machine without being            suspension and
                                 detected.                                 warning
                                 CSO allowed an IED Test Kit of a
                                                                            3-day
                                 simulated bomb to go through the
      District B    2/4/2009                                            suspension and
                                 X-ray machine without being
                                                                           warning
                                 detected.
                                 CSO allowed an IED Test Kit of a           3-day
      District C    2/5/2009     simulated bomb to go through the       suspension and
                                 X-ray without being detected.             warning
                                 CSO allowed an IED Test Kit
                                 containing simulated explosives to
                                 pass through the X-ray machine
                                 undetected while operating the X-      CSO received a
      District D    2/5/2009
                                 ray machine. The package did set          warning
                                 off the X-ray explosive indicator
                                 and was clearly visible on the X-ray
                                 monitor.
                                 Unknown CSO allowed an IED Test          No Action
                                 Kit of a simulated bomb to go          taken without
      District E    2/6/2009
                                 through the X-ray machine without      CSO identified
                                 being detected.

                                                                        CSO received
                                 CSO failed to detect dummy
      District F    2/17/2009                                             letter of
                                 explosives when they arrived.
                                                                         reprimand
       Source: USMS

      We believe this unintended test emphasizes the need for the USMS to
ensure that CSOs are properly trained on security equipment and
procedures. We believe the failure of these district offices to identify these
mock explosives devices, and the failure of USMS headquarters to identify
whether other district offices similarly failed to identify these devices
demonstrates that additional oversight from USMS headquarters is needed
to ensure that district offices follow USMS policy related to the testing of
security procedures.

       21
          A performance violation is defined by the USMS as an infraction that violates the
standards of competency, conduct, appearance, and integrity as outlined in the CSO
contract.


                                           - 10 -
Incidents and Arrests

       Incidents such as arrests at federal court facilities and bomb threats
must be reported to the Office of Court Security. However, we found that
not all USMS district offices are reporting this data as required. For
example, according to the data provided to us by the Office of Court
Security, only 80 of the 94 USMS district offices (85 percent) reported
incident and arrest data for March 2009 and October 2009. In addition, we
were informed that although the data is collected and monitored by the
USMS, the USMS engages in no coordinated effort to analyze this data.
Exhibit 3 provides a breakdown of incidents and arrests that were reported
by USMS districts in FYs 2009 and 2010.

                                   Exhibit 3
                  Incidents and Arrests at U.S. Court Facilities
                         Fiscal Years 2009 and 2010 22
                                        FY 2009                          FY 2010
                                           Percentage of                     Percentage of
          Violation
                               Count           Total             Count          Total 23
“Other” Incidents               2,585             79.0           3,578             91.1
Medical Emergency                301              9.2             167              4.3
Disruptive Person                201              6.1              98              2.5
Illegal Weapon                   98               3.0              23              0.6
Contraband                       42               1.3              41              1.0
Arrests                          22               0.7              2               0.1
Bomb Threat                       7               0.2              6               0.2
Forced Entry                      7               0.2              3               0.1
Assault                           6               0.2              8               0.2
Shooting                          3               0.1              0               0.0

            TOTALS             3,272           100%              3,926           100%
       Source: USMS

       As the table above shows, in FY 2009, 79 percent of the incidents were
classified as “other” incidents. In FY 2010, this number rose to 91 percent
of the total. When we asked the USMS how it defines this category, the
       22
         Data reported for fiscal year 2010 does not cover the full fiscal year and is current
through August 26, 2010.
       23
            Throughout the report, total percentages may not equal 100 percent due to
rounding.


                                           - 11 -
USMS responded that this category reflects significant incidents such as
damage to government property, protests and demonstrations, suspicious
vehicles, and the photographing of U.S. courthouses. According to the
USMS, there are no plans to address the high percentage of incidents
categorized as “other” incidents because it believes there are too many other
possible incidents to add additional categories to its data collection efforts.
We disagree with the USMS. By including potentially significant incidents
like suspicious vehicles and the photographing of U.S. courthouses in the
“other” incidents category, the USMS may be missing the opportunity to
identify trends that could demonstrate future threats to U.S. courthouses.

      We believe that the USMS should ensure that all of its district offices
report incident and arrest data as required and analyze the collected data on
a routine, periodic basis, to identify trends such as the use of certain
weapons or the increased incidence of suspicious vehicles found at federal
courthouse locations. Such analyses could allow for better planning in the
deployment of screening equipment, building design, and staffing.
Furthermore, we believe such information and analyses could be valuable to
the federal judiciary and would help ensure that the judiciary is better aware
of potential security threats.

Conclusion and Recommendations

       We believe that the USMS should take proactive steps to improve the
physical security of the federal court facilities it protects. First, the USMS
should require all of its district offices to regularly review and update their
Continuity of Operations Plans and judicial security plans. Without updated
security planning documents, the district offices are at risk of being
unprepared should a security event occur. The USMS should also ensure
that all CSOs and Judicial Security Inspectors are fully trained on the
operation of screening equipment and screening procedures. The failure of
the USMS to adequately train these personnel on screening equipment and
procedures could result in greater vulnerability to federal court facilities and
personnel. We also believe that the USMS should perform periodic analyses
of incidents and arrests. Such analyses could assist the USMS in identifying
trends; assist in the planning and deployment of screening equipment,
building design, and staffing; and would help ensure that the judiciary is
more aware of potential security threats.

We recommend that the United States Marshals Service:

      1. Ensure that all USMS district offices regularly review and update
         their Continuity of Operations Plans and ensure that annual security



                                     - 12 -
            surveys are performed at each district and that all judicial security
            plans are updated as required.

       2. Ensure that all of its district offices assign a principal coordinator to
          the district Court Security Committee and encourage the local
          judiciary to lead regular meetings.

       3. Ensure that all Judicial Security Inspectors and CSOs are
          appropriately trained before entering on duty. The USMS should
          also develop a process to ensure that all Judicial Security Inspectors
          and CSOs are adequately trained on newly deployed screening
          systems.

       4. Ensure that its district offices perform the required quarterly
          unannounced tests to determine if CSOs are adequately screening
          visitors, packages, and mail that are delivered to the courthouse
          and maintain records of the results.

       5. Ensure that all district offices report incidents and arrests at
          courthouse facilities as required and conduct a coordinated periodic
          analysis of the data each fiscal year.

Management of Security Contracts and the Court Security Officer
Program

      As noted above, as of June 2010, the USMS had a contract force of
over 5,000 CSOs deployed at federal court facilities throughout the United
States. These CSOs are supervised by Judicial Security Inspectors in each of
the USMS district offices.

      The USMS currently has 12 primary security contracts that provide for
CSO services at federal court facilities nationwide. 24 The 12 contracts are
organized geographically to align with each of the 12 federal judicial circuits.
The CSO workforce varies in size from one judicial circuit to the next. For
example, the CSO contract for the 9th Judicial Circuit, which is the largest of
the 12 judicial circuits, provides over 700 CSOs to staff security operations
at 67 court facilities. In contrast, the 1st Judicial Circuit provides
approximately 200 CSOs to staff security operations at 11 court facilities.



       24
          In addition to the 12 primary contracts, the USMS has set aside contracts for the
Northern District of Florida and the Central District of Illinois for 8(a) awards, which are
contracts awarded to small businesses owned and controlled by socially and economically
disadvantaged individuals.


                                           - 13 -
      As of January 2009, the 12 primary CSO contracts were divided among
3 vendors. As reflected in Exhibit 4, the majority of the primary CSO
contracts are with AKAL, who holds 8 of the 12 primary contracts. The
remaining four primary contracts are divided evenly between MVM and
Inter-Con.

                              Exhibit 4
                        U.S. Marshals Service
                    Court Security Officer Program
   Distribution of Primary Contracts and CSOs by Judicial Circuit 25




 Source: USMS Office of Court Security

      Our review found that the USMS’s management of its court security
contracts needs improvement. We believe a general lack of oversight by the
Office of Security Contracts has resulted in inefficiencies and in some cases
major breakdowns in the contract review and approval process.

USMS Oversight of the CSO Contract Procurement Process

      Our review found that the USMS’s Office of Security Contracts did not
follow USMS procurement policy. For example, in September 2006, the
USMS awarded 3 of its 12 primary CSO contracts to a security guard
company, USProtect Corporation (USProtect). The 3 CSO contracts awarded
to USProtect totaled about $300 million and covered federal court operations

      25
           Data reflects distribution of CSO contracts as of January 15, 2009.


                                            - 14 -
in 3 of the 12 federal judicial circuits, and involved the hiring, training, and
supervision of approximately 800 contract guards. Two months prior to the
USMS’s selection of USProtect, the DOJ OIG issued a fraud alert to the USMS
regarding USProtect that included the information from a 2005 fraud alert
issued by the Social Security Administration Office of the Inspector General
(SSA OIG). The SSA OIG alert outlined a history of fraud related to US
Protect covering a 12-year period. This history included multiple fraud
convictions and civil judgments against its Chief Financial Officer, including
criminal convictions for mail fraud, submitting false insurance claims, and
bank fraud, and six fraud-related civil judgments totaling more than
$1.4 million. Despite its knowledge of this history, the Office of Security
Contracts determined that USProtect offered the best value to USMS. 26

       In March 2008, USProtect filed for Chapter 7 bankruptcy protection
after the USMS and other federal agencies decided not to renew their
contracts with USProtect amid allegations of fraud and mismanagement.
This left many CSOs temporarily without compensation for their services.

       On June 17, 2009, the DOJ OIG issued another advisory to the USMS
related to deficiencies in the USMS contract award process as demonstrated
by its selection of USProtect. 27 The advisory highlighted that USProtect was
awarded the contract in September 2006 despite: (1) the lack of due
diligence in the USMS’s background research, (2) USMS concerns that
USProtect’s proposed price was insufficient to cover program costs, and
(3) USMS’s failure to provide all relevant information to the USMS’s
Technical Evaluation Board. 28 Additionally, the advisory highlighted that the
Technical Evaluation Board’s bid review process was based on 3 criteria
weighted on a 100-point scoring system but that in many instances, even
though USProtect did not receive full points, the Technical Evaluation Board’s
forms contained no explanation of deficiencies or weaknesses that caused
the lower-than-maximum score. In addition, the advisory noted that the




       26
          At the conclusion of this audit, the USMS informed us that the contracting officer
responsible for this contract is no longer employed by the USMS.
       27
            Appendix III contains a copy of the advisory.
       28
           The Federal Acquisition Regulation requires that the “selection authority shall
establish an evaluation team, tailored for the particular acquisition, that includes
appropriate contracting, legal, logistics, technical, and other expertise to ensure a
comprehensive evaluation of offers.” In this case, the USMS contracting officer appointed a
Technical Evaluation Board consisting of a U.S. Marshal, a Chief Deputy U.S. Marshal, two
Deputy U.S. Marshals, and one employee from the Judicial Security Division.


                                            - 15 -
DOJ OIG’s July 2006 fraud alert had not been provided to the Technical
Evaluation Board. 29

       The USMS responded to the advisory on July 28, 2009, outlining
procedures that it would adopt to address the issues discussed in the
advisory. According to the USMS response, USMS procurement officials will
diligently comply with all USMS procurement policies and procedures. The
USMS response further stated that the contracting officer or source selection
authority will share all relevant information and concerns with members of
the Technical Evaluation Board and that counsel and advice will be sought
from authorized program, procurement, and legal officials prior to an award.
The response also said that, in retrospect, the USMS agreed that USProtect’s
price was insufficient to perform the requirements of the contract and that
the contracting officer should have used better judgment in this area.
According to the USMS, it has since hired a more experienced contracting
officer to manage and administer the Office of Security Contracts. The
response also stated that the USMS will provide additional training for
members of the Technical Evaluation Board.

Security Contract File Management

       We also determined that the Office of Security Contracts lacks written
policies that establish procedures for maintaining files on the selection of
CSO contractors. According to an Office of Security Contracts official, the
lack of organization of the security contract files makes it difficult for the
USMS to defend against bid protests filed by vendors and claims filed by
contractors. For example, this official cited a claim that was filed by one of
the CSO vendors in 2006. In this case the contractor alleged that the USMS
failed to pay more than $700,000 in properly submitted invoices. According
to this official, because of poor documentation and file management the
USMS was unable to defend against the claim. Ultimately, the USMS had to
pay the vendor on the claim. Although the USMS later informed us that it
did not believe the lack of payment was a result of poor documentation, the
USMS acknowledged that it had not paid the properly submitted invoices. In
February 2008, a bid protest was filed by a CSO contract bidder related to
the replacement of USProtect and the USMS was unable to defend its
selection of another bidder. Because of concerns related to how the
solicitation was set up, lack of documentation, and an insufficient review and
evaluation by the Technical Evaluation Board, the USMS conceded in
November 2008. As a result of this protest we were informed that all

       29
          While the initial meeting of the Technical Evaluation Board took place prior to the
DOJ OIG’s issuance of the fraud alert in July 2006, the USMS was in possession of this
information prior to the Technical Evaluation Board’s follow-up meeting in August 2006.


                                           - 16 -
12 judicial circuits’ primary CSO contracts were open for rebidding.
According to the USMS, proposals have been received and are currently
being reviewed, and the anticipated award date is October 2010 for all
12 circuits.

        In our judgment, the USMS needs to implement procedures to improve
its file management system as soon as possible. At the conclusion of our
audit the USMS informed us that at future training for USMS Contracting
Officer’s Technical Representatives they will receive a folder that will serve
as a checklist for the filing of documents and the tracking of invoices. We
believe this is a good first step toward improving the USMS’s file
management system and we recommend that the USMS continue to
evaluate its current contract file maintenance practices and develop
procedures to ensure that all necessary documentation is maintained in a
consistent manner. By doing so, we believe that the USMS could avoid the
expenses and disruption related to future bid protests and other types of
contract challenges.

      Oversight of CSO Contractor Invoicing

      Our audit also determined that the USMS’s management of invoices for
CSO work hours needs improvement. CSOs currently manually record their
time on a paper timesheet. In each of the six districts we visited, the
Judicial Security Inspector received the hard copy of the CSO sign-in sheets
on a daily or weekly basis and reviewed the timesheets for accuracy. At the
end of the month the Judicial Security Inspector compared these timesheets
to the invoices and monthly hourly reports received from the contractor. In
response to a questionnaire we submitted to the Judicial Security Inspectors
at each of the district offices, several Judicial Security Inspectors expressed
concern that the billing process is too cumbersome.

      The absence of a streamlined timekeeping system in the districts
increases the risk of human error, overbilling by the contractors, and fraud.
Our review revealed timekeeping inaccuracies in all six districts we visited.
Therefore, we recommend that the USMS seek to streamline its timekeeping
practices for CSOs.

USMS Management of the Court Security Officer Program

       Our review of the Court Security Officer Program found that the USMS
has failed to: (1) conduct timely background investigations for newly hired
CSOs, (2) adequately utilize the data it collects on CSO performance
violations, and (3) maintain adequate personnel records for its CSO
workforce.


                                    - 17 -
         Background Investigations

       Background investigations conducted by USMS district offices
determine the suitability for the assignment of CSOs to the CSO contract.
This investigation consists of individual interviews with CSO candidates, a
review of past employment records, fingerprinting, criminal record checks,
and a credit check. Background investigations are completed by the district
and sent to USMS headquarters for adjudication and approval.

       USMS policy requires that background check information and
recommendations be submitted by the district office to its Office of Court
Security within 21 days of the district office’s receipt of the background
investigation request. We tested a sample of 20 out of 213 CSOs hired
between February and July of 2009. Overall, we found that 17 out of the
20 background investigations were submitted by the district office to the
Office of Court Security after the 21-day requirement expired. These
17 untimely background investigations had an average processing time of
74 days. This included 1 investigation that took over 415 days for the
district to complete.

                                     Exhibit 5
                     USMS District Office Processing Times for
                   OIG Sample of CSO Background Investigations
         450

         400

         350

         300

         250
  Days




         200

         150

         100

          50

           0
               1    2   3   4   5   6   7   8   9   10 11 12 13 14 15 16 17 18 19 20
                                            Sample of 20 CSO Files

         Source: OIG Analysis of USMS records

      According to one contractor, the delay in processing background
investigations has caused a morale issue among the CSOs it employs.


                                                - 18 -
This contractor stated that because of understaffing, it has had to restrict
CSO leave requests and require overtime to cover shifts.

      We recommend that the USMS perform a comprehensive review of its
background investigation process for CSOs and seek to ensure that these
investigations are consistently completed in a timely manner.

      CSO Performance Violations

      A performance violation is defined by the USMS as an infraction that
violates the standards of competency, conduct, appearance, and integrity as
outlined in the CSO contract. These infractions include allowing restricted
items to pass through security and leaving firearms unsecured. Although
the USMS maintains data on CSO performance violations, we concluded that
the USMS does not utilize this data effectively.

      According to the USMS it has a three-step process for reporting CSO
performance violations: (1) the district office submits a request to the Office
of Court Security that an alleged violation be investigated, (2) the Office of
Security Contracts sends a letter to the CSO vendor and requests an
investigation, and (3) the report of the vendor’s investigation is sent to the
Office of Security Contracts for USMS concurrence. Because CSOs are not
USMS employees, the contractor must conduct the investigation and respond
to the Office of Security Contracts with the results of its investigation. The
contractor also must recommend and carry out appropriate disciplinary
action for any performance violations. If Office of Security Contracts officials
disagree with the contractor’s findings, they can request the contractor to
conduct further investigation or impose different disciplinary action. The
USMS may also ask that the CSO be removed from the contract if the USMS
does not agree with the contractor’s course of action.

      We were informed that CSO performance violations are tracked
manually by both the Office of Court Security and the Office of Security
Contracts. At our request, the USMS provided us with a breakdown of its
CSO contract performance violations for FY 2008 through the first 10 months
of FY 2010. The USMS expanded the number of categories it used to track
these violations beginning in FY 2009. Exhibit 6 shows CSO contract
performance violations by type for FY 2008 through the first half of FY 2010.




                                     - 19 -
                                      Exhibit 6
                    CSO Contract Performance Violations by Type
                         Fiscal Years 2008, 2009, and 2010
                             FY 2008                     FY 2009                 FY 2010 30
                    Violation   Percentage     Violation    Percentage   Violation   Percentage
Violation Type
                     Count       of Total       Count        of Total     Count       of Total
Security
Procedures              15          12.9          47           39.8         62           66.0

Misconduct              14          12.1          37           31.4         13           13.8
Abandonment
of Post                N/A             N/A         8               6.8      2             2.1

Mishandled
Firearm                  3             2.6         8               6.8      3             3.2

Insubordination        N/A             N/A         4               3.4     N/A            N/A
Arrests                N/A             N/A         2               1.7      6             6.4
Sexual
Harassment             N/A             N/A         2               1.7      5             5.3

Fraud                  N/A             N/A         1               0.8     N/A            N/A
Solicitation           N/A             N/A         1               0.8     N/A            N/A
Threat                 N/A             N/A        N/A              N/A      1             1.1
Other 31                84          72.4           8           6.8           2           2.1
TOTALS                 116         100%           118         100%          94          100%
  Source: USMS

        In addition, at our request, the USMS provided a breakdown of the
  actions taken to address performance violations. Exhibit 7 shows the action
  taken on CSO contract performance violations for FY 2008 through the first
  10 months of FY 2010.




          30
               Data is current through August 5, 2010.
          31
            This category is used to track performance violations that do not fit the other
  established categories. For example, one of the cases categorized as “other” involved a
  CSO who was found to have several overdue and delinquent financial obligations during a
  routine background reinvestigation.


                                              - 20 -
                                   Exhibit 7
             Action Taken on CSO Contract Performance Violations
                      Fiscal Years 2008, 2009, and 2010
                           FY 2008                   FY 2009                    FY 2010 32
   Action          Action    Percentage       Action     Percentage      Action     Percentage
   Taken           Count      of Total        Count       of Total       Count       of Total

                     35          30.2           34           28.8          18          19.1
Suspensions
                                                                          N/A          N/A
Demotion &
                     N/A          N/A            1            0.8
Warning
                     10           8.6           19           16.1          11          11.7
No Action
                     23          19.8           29           24.6          38          40.4
Pending 33
                     21          18.1           13           11.0           9           9.6
Removal
                      3           2.6            3            2.5           4           4.3
Resignation
                     24          20.7           19           16.1          14          14.9
Warning
TOTALS              116         100%           118          100%           94         100%
Source: USMS

       We believe that the USMS’s expansion of performance violation
categories is useful because the USMS can better determine the types of
violations that are occurring. However, we believe that the USMS can utilize
this data more effectively. For example, the USMS does not analyze its
performance violation data to determine whether performance issues related
to contractors in one circuit were occurring in another circuit. Additionally,
at the time of our field work the USMS was not analyzing this data to assess
potential CSO training needs, although we were told that the USMS is
currently considering ways to utilize this data when developing future CSO
training. We recommend that the USMS develop a method for analyzing its
performance violation data to better understand violation trends and
potential training needs among its CSO workforce.

      One USMS official stated that Judicial Security Inspectors do not
always report performance violations to USMS headquarters. This official
indicated that on some occasions Judicial Security Inspectors handle the
issues on a local level. Such an approach could lead to inconsistent

        32
             Data is current through August 5, 2010.
        33
             This category captures those violations that were pending at the close of the fiscal
year.


                                              - 21 -
reporting of performance violations and make it more difficult to gauge the
extent of the problem and track resolution of corrective actions. In addition,
it is difficult to seek the removal of a problem CSO if violations are not
consistently reported to USMS headquarters. Therefore, we recommend that
the USMS provide additional guidance to district Judicial Security Inspectors
to ensure that all CSO performance violations are documented and reported
to the Office of Security Contracts.

      Maintenance of CSO Personnel Records

       The USMS maintains an electronic database that contains information
relating to CSOs’ dates of hire, background investigations, medical records,
firearms qualifications, and training certifications. The information contained
in this database is based on personnel source documents maintained by
USMS district offices. This electronic database is intended to provide an
efficient method to track CSO personnel information. However, the USMS
district offices are not able to update and access the database as needed.
Instead, updates must be performed by USMS headquarters personnel. In
addition, according to USMS officials, although the database stores this
personnel information, it cannot be used to automatically alert the USMS of
upcoming CSO requirements, such as needed training, firearms
qualifications, and medical examinations.

      We selected and reviewed a sample of 60 CSO personnel files for the
requisite medical examination records and firearms qualifications.
Generally, we found that the CSO personnel files were incomplete and poorly
organized, which resulted in incomplete and inconsistent data in the CSO
database.

      According to the performance standards for all CSO contracts, the
contractor must require the CSO to complete and pass an annual medical
examination within 1 year of their last examination date. The medical
examination is performed by a physician designated by the CSO contractor.
A medical officer from the U.S. Public Health Service’s Federal Law
Enforcement Medical Program then reviews the results of the medical
examination and determines whether the CSO is qualified to perform CSO
job functions. If the CSO fails to complete and pass the examination, the
CSO is disqualified and the contractor must prohibit the CSO from
performing under the contract. However, we determined that 1 of the
60 selected files (2 percent) contained no medical examination records. In
addition, 38 of the 60 files (63 percent) contained medical examination




                                    - 22 -
records that were out of date because they indicated that the most recent
examination occurred more than 1 year prior to our review of the files. 34

       In addition to the medical examination requirement, it is the
responsibility of the contractor to ensure that all CSOs annually qualify on
their firearm. However, our review of the same 60 CSO personnel files
found that 11 of the 60 CSO files (18 percent) lacked firearm qualification
records. In addition, 28 of the 60 files (47 percent) contained firearms
qualifications that were out of date. 35

        Our limited file review presents serious concerns regarding the medical
and firearms qualifications for CSOs. Without adequate personnel file
maintenance it is difficult for USMS management to ensure that all CSOs are
fit for duty. If a CSO is not fit for duty, this could lead to safety risks for
other CSOs and those they are charged with protecting. We recommend
that the USMS evaluate its personnel file maintenance practices and develop
procedures to ensure that all necessary documentation, such as medical and
firearms qualifications, is adequately maintained and up to date. In
addition, we believe that the USMS should assess the feasibility of
implementing an automated system for tracking important dates in the
database to ensure that the CSOs satisfy their qualification requirements in
a timely manner.

Conclusion and Recommendations

      The workforce of more than 5,000 CSOs represent the first line of
defense in the USMS’s efforts to secure federal court facilities. However, we
found that the USMS’s management of its court security officer program and
related contracts needs significant improvement. A general lack of oversight
by the Office of Security Contracts has resulted in inefficiencies and in some
cases major breakdowns in the contract review and approval process. In
addition, the USMS is not completing background investigations for newly
hired CSOs in a timely manner. Further, the USMS’s failure to analyze
performance violations has made it difficult for the USMS to understand CSO
performance violation trends and to identify potential training needs. The
       34
          The USMS provided us with the 60 CSO personnel files on December 4, 2009.
Because USMS policy requires a CSO to receive an annual medical examination within
1 year of the previous examination, we considered a CSO personnel file to contain out-of-
date medical examination records if the file did not contain evidence of a medical
examination that occurred between December 3, 2008, and December 4, 2009.
       35
           The USMS provided us with the 60 CSO personnel files on December 4, 2009.
Because USMS policy requires a CSO to qualify on their firearm once per calendar year, we
considered a CSO personnel file to contain an outdated firearms qualification record if the
file lacked a record for calendar years 2008 and 2009.


                                          - 23 -
USMS’s failure to ensure that firearms qualifications and medical
examinations are adequately documented could lead to safety risks for CSOs
and those they are charged with protecting.

We recommend that the United States Marshals Service:

     6. Continue to evaluate its current contract file maintenance practices
        and develop procedures to ensure that all necessary documentation
        is maintained in a consistent manner.

     7. Seek to streamline its current time keeping practices for CSOs.

     8. Perform a comprehensive review of its background investigation
        process for CSOs and seek to ensure that these investigations are
        completed in a timely manner.

     9. Develop a method for analyzing its performance violation data to
        better understand violation trends and potential training needs
        among its CSO workforce.

    10. Provide additional guidance to district Judicial Security Inspectors to
        ensure that all CSO performance violations are documented and
        reported to the Office of Court Security.

    11. Evaluate its CSO personnel file maintenance practices and develop
        procedures to ensure that all necessary documentation, such as
        medical and firearms qualifications, is adequately maintained and
        up to date. In addition, the USMS should assess the feasibility of
        implementing an automated system for tracking important dates in
        the database to ensure that the CSOs satisfy their qualification
        requirements in a timely manner.

Management of Security Systems and Security System Contracts

       Our audit found that the USMS does not maintain custody of the
inventory records for the security systems equipment obtained
through its nationwide security systems contract. The USMS also does
not enter such equipment in its property management system.
Instead, the USMS relies on the contractor to maintain and update its
security systems equipment inventory. In addition, the USMS told us
that it has no maintenance agreements for the millions of dollars worth
of sophisticated screening equipment deployed at court facilities
throughout the country that are obtained outside of the nationwide
security systems contract.


                                    - 24 -
Oversight of the Nationwide Security Systems Contract

        A nationwide security systems contract covers the purchase,
installation, and maintenance of duress and intruder alarms, closed-circuit
televisions, intercoms, and access-control systems at federal courthouse
facilities. The security systems contract is awarded for a 1-year term with
4 option years. The nationwide security systems contract is currently held
by ADT, who according to one USMS official has held the contract with the
USMS for the last 16 years.

       The USMS Contracting Officer’s Technical Representatives for the
nationwide security systems contract are located at USMS headquarters.
District Judicial Security Inspectors assist the Contracting Officer’s Technical
Representatives with the day-to-day oversight of the contract in the district
offices. 36 For example, if a security camera needed to be installed at a
courthouse and the contractor sends someone to perform the work, the
Judicial Security Inspector in that district typically certifies that the work was
performed.

       According to USMS policy, the contractor documents the work
performed on site and the U.S. Marshal or designee must sign a service call
report verifying that the work was completed and the number of contractor
hours listed is accurate. The U.S. Marshal or designee should also ensure
that the equipment is operating properly or indicate otherwise on the service
call report. However, we were told that in most circumstances the district
offices do not supervise the work being performed by the contractor.
Therefore, because labor hours are not always being monitored it is difficult
for the USMS to consistently ensure that the labor hours claimed were
actually worked by the contractor. We believe that this failure to supervise
the work performed leaves the USMS vulnerable to fraud and potential
overbilling. We recommend that the USMS require district offices to
supervise and verify labor hours claimed by contractors to help ensure that it
is not being overbilled under the nationwide security systems contract.

Oversight of Security System Inventory and Maintenance

       The USMS’s nationwide security systems contract covers the purchase,
installation, and maintenance of surveillance cameras, duress alarms,
monitors, and access control systems for courthouses. However, the USMS
does not maintain recordkeeping custody over this equipment nor does it
enter this equipment into the USMS property management system.

       36
           According to the USMS, all Judicial Security Inspectors receive Contracting
Officer’s Technical Representative training and are required to be recertified every 2 years.


                                           - 25 -
In accordance with the nationwide security systems contract the USMS relies
on the private contractor, ADT, to maintain and update its inventory.

      Maintenance fees charged on the ADT contract are assessed on a per
item basis. Therefore, if the USMS does not ensure that items no longer in
use are removed from ADT’s inventory, it could result in significant
overcharges. According to one USMS official, the USMS may have overpaid
ADT between $10 million and $12 million for unnecessary annual
maintenance fees over the past 5 years. 37

       At three of the six districts we visited, we found that the Judicial
Security Inspectors maintained copies of inventory listings that they used to
confirm whether inventory items were no longer in use. However, according
to district officials in one of these three districts, despite informing ADT that
certain items were no longer in use, ADT failed to remove them from the
annual inventory and continued to charge the USMS for the maintenance of
this equipment.

      According to USMS headquarters officials, because the contractor’s
technicians add and remove equipment daily, they believe their involvement
in the annual inventory process would introduce administrative burdens and
costs. However, we believe that the USMS should be more proactive in the
inventory process by maintaining local inventory records that should help
avoid unwarranted maintenance fees.

       Therefore, we recommend that the USMS assess the feasibility of
district offices maintaining their own security system equipment inventories
of equipment maintained by the contractor so that comparisons can be made
to the contractor’s inventory to avoid unwarranted maintenance fees.
Without such practices, the USMS district offices cannot perform regular
checks of the security system inventory to ensure that they are not being
billed for maintenance fees for equipment no longer in use.

Maintenance of Screening Equipment

      In addition to the security systems obtained through the nationwide
security systems contract, the USMS also acquires security screening
equipment, including X-ray machines, walkthrough metal detectors, and
explosives detection units, through various procurement methods. This
screening equipment is not purchased under a specific USMS contract and is
maintained by the USMS.

      37
         We did not audit the ADT contract. Therefore, we could not independently verify
the estimated dollar amounts provided by this USMS official.


                                         - 26 -
       In contrast to the maintenance plan contained in the nationwide
security systems contract, we found that the USMS has no maintenance
agreements for the millions of dollars worth of sophisticated screening
equipment deployed at court facilities throughout the country. During our
review, we found that when X-ray machines and metal detectors were in
need of repair they were out of service anywhere from 1 day to several
weeks. According to an Office of Security Systems official, the USMS
previously conducted an analysis and determined that maintenance plans for
this equipment were not cost effective. However, this official also told us
that he was unsure whether the USMS was assessing the impact of
downtime on court security. Although we do not question the results of the
USMS’s analysis, we recommend that the USMS track the cost of repairs for
its screening equipment and the impact of downtime on court security in
order to periodically assess whether a maintenance plan for such screening
equipment would be cost effective. By periodically reassessing the need for
a maintenance plan, the USMS can ensure that the most cost-effective
method is being used for the maintenance of these items.

Oversight of Contractor Performance

      The Federal Acquisition Regulation (FAR) requires that
performance evaluations be prepared at the time the work under the
contract or order is completed. Past performance evaluations provide
information about a potential contractor’s ability to perform the
contract successfully. The evaluation should contain current and
relevant information, source of the information, context of the data,
and general trends in a contractor’s performance. In addition, for
contracts or orders with a performance period exceeding 1 year,
interim evaluations are prepared according to the government
agency’s specifications in order to provide current information for
source selection purposes, contracts, or orders. The USMS and other
agencies use this information as part of the analysis conducted during
the solicitation award process to determine if a vendor can successfully
perform on new contracts.

      A USMS official that we interviewed acknowledged that the Office
of Security Contracts was not reporting contractor performance as
required by the FAR. According to this USMS official, the USMS no
longer submits this information because the staff member formerly
responsible for this task has retired and no one has been assigned to
this duty.

       This failure to report contractor performance hinders the USMS’s
ability to evaluate contractors who bid on new contracts. We therefore


                                    - 27 -
recommend that the USMS require the Office of Security Contracts to
prepare past performance and interim evaluations in accordance with the
FAR.

Conclusion and Recommendations

       We were told that in most circumstances that USMS district
offices do not supervise the work being performed by the contractor
under the nationwide security systems contract. Because this work is
not always being monitored it is difficult for the USMS to consistently
ensure that the claimed labor hours are actually worked by the
contractor. We believe that a lack of supervision of the work
performed under the nationwide security systems contract leaves the
USMS vulnerable to fraud and potential overbilling. We therefore
recommend that the USMS require district offices to supervise and
verify labor hours claimed by contractors to help ensure that it is not
being overbilled under the nationwide security systems contract. We
also found that the USMS does not currently monitor the inventory
records for the equipment obtained under the nationwide security
systems contract, which may have led to the payment of unwarranted
maintenance fees to the contractor. Accordingly, we recommend that
the USMS assess the feasibility of district offices maintaining their own
security system equipment inventories so that comparisons can be
made to the contractor’s inventory.

      The USMS has no maintenance agreements for the screening
equipment it deploys at court facilities throughout the country. We were
informed that X-ray machines and metal detectors in need of repair were out
of service for extended periods of time. We recommend that the USMS track
the cost of repairs for screening equipment and assess the impact of
downtime on court security in order to periodically assess whether a
maintenance plan for its screening equipment would be cost effective. We
also believe that the USMS should ensure that the Office of Security
Contracts prepares past performance and interim evaluations for its
contractors as required by the FAR.




                                    - 28 -
We recommend that United States Marshals Service:

    12. Require district offices to supervise and verify labor hours claimed
        by contractors to help ensure that it is not being overbilled under
        the nationwide security systems contract.

    13. Assess the feasibility of district offices maintaining their own
        security system equipment inventories of equipment maintained by
        the contractor so that comparisons can be made to the contractor’s
        inventory to avoid unwarranted maintenance fees.

    14. Track the cost of repairs for its screening equipment and the impact
        of downtime on court security in order to periodically assess
        whether a maintenance plan for its screening equipment would be
        cost effective.

    15. Require the Office of Security Contracts to prepare past
        performance and interim evaluations in accordance with the Federal
        Acquisition Regulation.




                                   - 29 -
              STATEMENT ON INTERNAL CONTROLS

      As required by the Government Auditing Standards, we tested, as
appropriate, internal controls significant within the context of our audit
objective. A deficiency in an internal control exists when the design or
operation of a control does not allow management or employees, in the
normal course of performing their assigned functions, to timely prevent or
detect: (1) impairments to the effectiveness and efficiency of operations,
(2) misstatements in financial or performance information, or (3) violations
of laws and regulations. Our evaluation of the United States Marshals
Service’s internal controls was not made for the purpose of providing
assurance on its internal control structure as a whole. The United States
Marshals Service’s management is responsible for the establishment and
maintenance of internal controls.

       As noted in this report, we identified deficiencies in the United States
Marshals Service’s internal controls that are significant within the context of
the audit objective and based upon the audit work performed that we
believe adversely affect the United States Marshals Service’s ability to
effectively manage: (1) the CSO contract procurement process and (2) the
daily oversight of its CSO contracts and nationwide security systems
contract.

      Because we are not expressing an opinion on the United States
Marshals Service’s internal control structure as a whole, this statement is
intended solely for the information and use of the United States Marshals
Service. This restriction is not intended to limit the distribution of this
report, which is a matter of public record.




                                     - 30 -
                   STATEMENT ON COMPLIANCE
                  WITH LAWS AND REGULATIONS

      As required by the Government Auditing Standards we tested, as
appropriate given our audit scope and objective, selected transactions,
records, procedures, and practices, to obtain reasonable assurance that the
United States Marshals Service’s management complied with federal laws
and regulations, for which noncompliance, in our judgment, could have a
material effect on the results of our audit. The United States Marshals
Service’s management is responsible for ensuring compliance with applicable
federal laws and regulations. In planning our audit, we identified the
following laws and regulations that concerned the operations of the auditee
and that were significant within the context of the audit objective:

     •   Federal Acquisition Regulation (FAR)

     •   Homeland Security Presidential Directive 20 (HSPD-20)

     •   Federal Continuity Directive 1 (FCD 1)

      Our audit included examining, on a test basis, the United States
Marshals Service’s compliance with the aforementioned laws and regulations
that could have a material effect on United States Marshals Service’s
operations, through interviewing auditee personnel and examining
procedural practices.

      As noted in this report, we found that some of the United States
Marshals Service’s district offices that we visited did not comply with FCD 1,
which requires a minimum of an annual review of Continuity of Operations
Plans with updates throughout the year as necessary. In addition, we found
that the United States Marshals Service did not comply with the FAR in its
selection of a particular CSO contractor. The United States Marshals Service
also failed to comply with the FAR by not reporting contractor performance.




                                    - 31 -
                                                                APPENDIX I

             OBJECTIVE, SCOPE, AND METHODOLOGY

Audit Objective

      The objective of this audit was to assess the USMS’s oversight of its
Judicial Facilities Security Program.

Scope and Methodology

       We conducted this performance audit in accordance with generally
accepted government auditing standards. Those standards require that we
plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our
audit objective. We believe that the evidence obtained provides a
reasonable basis for our findings and conclusions based on our audit
objective. In general, our audit covered but was not limited to the period of
fiscal years 2004 through 2009.

       To accomplish our objective we interviewed USMS headquarters
officials, reviewed USMS policies and procedures, and obtained and analyzed
data pertinent to the USMS’s court security programs, including a review of
CSO personnel files. We also conducted an in-depth review of the
procurement process for a CSO contractor whose contract was later
terminated. Additionally, we conducted site work at six USMS district
offices. At each district office location, we interviewed the local Judicial
Security Inspector, obtained documents pertinent to local court security
operations, received a tour of the court facilities, and interviewed members
of the federal judiciary, including Chief Judges. Finally, we disseminated a
questionnaire to the Judicial Security Inspectors in each district office
concerning management of the CSO contracts and security equipment.

District Offices Visited

     We identified the judicial circuits that were covered by each primary
CSO contractor and judgmentally selected six USMS district offices that were
geographically dispersed throughout the United States. Then, within each
sample district, we selected specific federal court facilities to visit.




                                    - 32 -
CSO Personnel Files

      We selected a judgmental sample of 60 CSO personnel files from a
universe of 7,312 records of CSO statuses that were active, new, pending,
and shared between April 1, 1983, and September 17, 2009. We reviewed
these 60 CSO personnel files to determine if they contained up-to-date
medical examination records and firearms qualifications. Ultimately, we
determined that 1 of the 60 files contained no medical examination record,
while 38 of the personnel files contained medical examination records that
were out of date. 38 Our review also determined that 28 of the 60 CSO files
contained firearm qualifications that were out of date, while 11 of the files
contained no firearms qualification records. 39

      We also selected a judgmental sample of 20 background investigation
records for 213 CSOs hired between February and July of FY 2009 to
determine whether these background investigations were completed in
prescribed USMS timeframes. We determined that 17 of the 20 were
untimely.

      Our sample selection methodology was not designed with the intent of
projecting our results to the total population of CSO personnel files or
background investigation records.




       38
           The USMS provided us with the 60 CSO personnel files on December 4, 2009.
Because USMS policy requires a CSO to receive an annual medical examination within
1 year of the previous examination, we considered a CSO personnel file to contain out-of-
date medical examination records if the file did not contain evidence of a medical
examination that occurred between December 3, 2008, and December 4, 2009.
       39
           The USMS provided us with the 60 CSO personnel files on December 4, 2009.
Because USMS policy requires a CSO to qualify on their firearm once per calendar year, we
considered a CSO personnel file to contain an outdated firearms qualification record if the
file lacked a record for calendar years 2008 and 2009.


                                          - 33 -
                                                              APPENDIX II

                         PRIOR OIG REPORTS

USMS – Court Security Officer Program (2000)

      In 2000, the OIG issued a report on the USMS’s Court Security Officer
Program. The OIG found that the overwhelming majority of U.S. Marshals
and Chief Judges surveyed indicated that they were satisfied with the CSO
Program. At the same time, however, there was a strong undercurrent of
concern among USMS employees and members of the judiciary regarding
the management of the program, and the efficacy of using contract
employees for judicial security. The report noted that the CSO Program at
the time was a highly centralized operation. Procurement of the CSO
contracts, as well as management of the program was largely a
headquarters function. The districts dealt directly with contractors in some
respects, such as bill-paying and timekeeping. But most decision-making
matters, such as hiring, firing, and disciplinary actions were funneled
through a handful of contracting officers and program managers at USMS
headquarters, who managed the program for the districts. According to the
report, as the program grew over the years, the centralized manner in which
the program was run gave rise to a great deal of frustration on the part of
those involved. These concerns brought into question whether the program
of the size and breadth of the CSO program could be effectively managed in
a highly centralized environment.

       The OIG also noted (though not a serious problem at the time) that
the potential for CSO strikes had become a concern among members of both
the USMS and the judiciary. With unionization came the threat, already
realized, of CSO strikes. And as the services provided by contract CSOs
continued to expand, the report noted the greater potential impact on
security operations should a future disruption in that service occur as a
result of union or contract disputes.

       The OIG also noted that the CSO contracts had become a lightning rod
for legal challenges. Protests over the contracting process were on the rise,
culminating in a barrage of protests related to a recent round of contract
awards in early 1999. Some USMS officials believed these protests were a
by-product of the growth in the program and the millions of dollars at stake
in the large circuit-wide contracts. Although the USMS had successfully
defended against most of the protests filed, it appeared that the trend was
such that the legal challenges associated with these large circuit-wide
contracts were becoming a cost of doing business.


                                   - 34 -
       Because of the conflicting nature of the evidence obtained, the OIG
was reluctant to recommend a singular course of action. Instead, the report
suggested several options available to the USMS: (1) continue utilizing the
current CSO contracts, (2) eliminate the contract operation by converting
contract guards to federal employees, or (3) effect a partial conversion by
stratifying the current guard force into two separate units, one contract, and
the other federal. The federal force would be used for courtroom security,
while building security would remain a contract operation.

      The OIG also noted several areas of concern regarding the CSO
Program at the operational level. At the time, the Administrative Office of
the United States Courts (AOUSC) reimbursed the USMS for program-related
administrative costs incurred only at the headquarters level. However, the
OIG estimated that the USMS incurred about $2.8 million annually in
administrative costs at the district level, for which it was not reimbursed.
Consequently, the USMS, in effect, subsidized the AOUSC-funded program in
the amount of these unrecognized costs.

      There was also a concern among a number of U.S. Marshals that CSOs
did not receive adequate training for the duties required of them. U.S.
Marshals identified needed subject areas of training ranging from bomb
detection and anti-terrorist programs, to cardiopulmonary resuscitation
(CPR) and people skills. The report found that there was no provision in the
CSO contracts for in-service training.

       The report also noted some internal control issues, which the OIG
believed may have had an impact on security operations. For example,
unannounced tests of security screening posts were being conducted on a
quarterly basis, as required by USMS policy, at only 5 of the 16 district
offices the OIG reviewed. Unannounced tests at the other 11 districts were
conducted either infrequently, or in some cases not at all. Additionally, a
number of CSOs' security clearances and medical certifications could not be
verified because documentation was not consistently maintained at the
district level.

Background Investigations Conducted by the USMS (2005)

      This OIG review found that the USMS placed employees and
contractors in national security or public trust positions only after the field
investigation was completed or it issued a waiver, in accordance with federal
regulations and USMS policy. However, the report identified deficiencies in
both the field investigation and adjudication phases of the USMS background
investigation program. Due to incomplete and outdated policy guidance,
inconsistent procedures, and incomplete and inaccurate data systems, the


                                    - 35 -
USMS did not ensure that field investigations or adjudications were timely or
thorough. The OIG analysis also showed that investigations were slow, and
neither investigations nor adjudications were consistently thorough.

       Specifically, the OIG found that the USMS placed or retained personnel
in national security or public trust positions without complete investigative
information. The OIG also found that OPM investigations of USMS personnel
were not consistently timely or thorough. USMS field managers sometimes
rejected the adjudicators’ recommendations without providing written
justification and the USMS hired or retained a few of these employees who
subsequently engaged in significant misconduct. The OIG also found that
some reinvestigations were overdue. Furthermore, the USMS did not require
reinvestigations for CSOs who have law enforcement responsibilities and
carry firearms, regardless of how many years they worked at the USMS.
The report stated that by correcting these deficiencies, the USMS could
better ensure that the individuals assigned to its national security and public
trust positions have been thoroughly screened.

Review of the Protection of the Judiciary and the United States
Attorneys (2009)

       This OIG review found deficiencies in the response to threats by the
USMS and the Executive Office for U.S. Attorneys (EOUSA). As a threshold
matter, the OIG report found that threats against judges, U.S. Attorneys and
Assistant U.S. Attorneys are not consistently and promptly reported.
Moreover, the report stated that when threats were reported the USMS did
not consistently provide an appropriate response for the risk level posed by
the threat. In addition, the USMS did not fully or effectively coordinate with
other law enforcement agencies to respond to threats against federal judicial
officials. In addition, the report stated that coordination on threat responses
among EOUSA, the United States Attorneys, and the USMS is inconsistent.




                                    - 36 -
                                                                                APPENDIX III

OIG MANAGEMENT ADVISORY MEMORANDUM AND
             USMS RESPONSE


                                                             u.s. Department of Justice
                                                             Office of the Inspector General




  June 17,2009

  MANAGEMENT ADVISORY MEMORANDUM FOR:

               JOHN F. CLARK
               DIRECTOR
               UNITED STATES MARSHALS SERVICE


  FROM:       {RAYMOND J. BEAUDET
               ASSISTANT INSPECTOR GENERAL
                 FOR AUDIT

  SUBJECT: Immediate Improvements Necessary for the Judicial Security
           Division's Court Security Procurement Process

        TIlis memorandum is to advise you of significant issues identified during
  the course of our ongoing audit of the United States Marshals Service's (USMS)
  oversight of court security. We began our audit on January 15, 2009, and
  since that time have identified significant concerns relating to the USMS's
  procurement practices. We also learned that the USMS is in the process of
  developing soliCitations for future court security contracts to be awarded later
  this year. Although our audit has not yet concluded, this memorandum
  provides early notification of Significant issues that we have identified to date.
  We believe that these are serious concerns that require the USMS's immediate
  attention and corrective action. We plan to include in our audit report the
  information presented in this memorandum, along with any corrective actions
  that the USMS has implemented before our report is issued. Therefore, we
  request that within 30 days of this memorandum, the USMS provide us with a
  written response describing how the USMS plans to address the concerns
  described below.

  Background

        The USMS Judicial Security Division's Office of Court Security is
  responsible for ensuring the safety of the judiciary at federal court facilities
  throughout the country. The Court Security Officer (CSO) program Is the
  primary mechanism used to accomplish this goal. Within the Office of Court
  Security, the Office of Security Contracts Is responsible for procuring the




                                       - 37 ­
services of roughly 4,700 CSOs that are deployed at over 400 facUities
nationwide.

      The CSO contracts are structured as multi-rnill1on dollar contracts wlth
security guard vendors that include providing protection through CSOs at
court fac1l1ties in each of the 12 Judicial circuits. For example, the CSO
contract for the 9 th Judicial Circuit includes federal court fac1llties in Alaska,
Arizona, California, Guam, Hawaii, Idaho. Montana, Nevada, the Northern
Mariana Islands, Oregon, and Washington. Therefore, problems associated
with a particular vendor or contract may affect the safety of court operations in
numerous court facllities throughout the country.

       In September 2006, the USMS awarded 3 ortts 12 CSO contracts to a
securtty guard company, USProtect Corporation (USProtect). The three CSO
contracts awarded to USProtect totaled $300 rnill10n to provide court security
officers for the STd. 5 th, and 12th Judicial Circuits) Each contract was for 1
base year with four I-year options. The contracts for the 3 Judicial circuits
encompassed federal court operations wlthin 15 USMS districts and involved
the hiring. training, and supervision of roughly 800 contract guards to be
deployed to the numerous federal court facilities within the 3 JUd.1c1al circuits.

       On March 16, 2008, USProtect filed for Chapter 7 bankruptcy protection
after the USMS Office of Security Contracts decided not to renew their
contracts with USProtect and other federal agenc1es terminated their contracts
with the company amid allegations of fraud and mismanagement. USProtect's
financial collapse left many CSOs without compensation for their services. In
the months leading up to the contract renewal award, the Office of Security
Contracts began taking steps to re-bld the CSO contracts for the 3'"d. 5 th , and
12th Judicial CIrCuits, which succeeded in minimizing the disruption of security
services when the USMS did not renew Its contract with USProtect. However,
our audit determined the USMS Office of Security Contracts was aware of
USProtect's problems even before the initial contracts were awarded, yet
Ignored them.

      Upon leanl1ng of the USProtect issue, we set out to detennine how the
USMS managed Its procurement process with regard to USProtect, whether it
complied with the Federal AcqUisition Regulation (FAR) and its own
procurement poliCies, and whether the situation deSCI1bed above could have
been avoided. To accomplish this task, we interviewed USMS employees


        I The 3nl Judicial Circuit includes federal court faclllties in the states of Delaware. New
Jersey. and Pennsylvania. as well as the U.S. Virgin Islands. The 5 th Judicial CIrcuit Includes
federal court fac1lltles In the states of LoulsJana, Mississippi. and Texas. The 121'> Judicial
Ctrcult Includes court fac1lltles In the District of Columbia and the Northern VirginIa Judicial
District


                                               -2-




                                            - 38 ­
related to the   eso procurement process, including the Office of Securtty
Contracts and Office of General Counsel. 2 In addition, we reviewed the
documents that were available in the solicitation and contract files. OUT focus
was on actions, or the lack of actions taken, before the CSO contracts were
awarded to USProtect.

       We identified significant concerns relating to the USMS's procurement
practices leading up to its selection of USProtect as a eso vendor including its
lack of compliance with the FAR and USMS procurement policies. Specifically,
these concerns relate to the USMS's: lack of adequate background research on
USProtect, an inadequate detenninatlon of responsibility of USProtect,
selection of USProtect despite concerns with bids that were disproportionately
low in compartson to other bids, and an inadequate technical review by the
Technical Evaluation Board. Had the USMS complied with the FAR and its
required procurement practices, we believe that it could have av01ded the
situation brought about by the collapse of USProtect. The following paragraphs
d1scuss these 1ssues in more detail.

Lack of Due Diligence in USMS'. Background Research

       We identified a lack of due diligence on the part of USMS employees
within the Office of Security Contracts and Office of General Counsel in
researching available information regarding USProtect. On July 17, 2006, the
U.S. Department of Justice Office of the Inspector General (OIG) issued Fraud
Alert 2006-02 to the USMS concerning USProtect, fonnedy known as Holiday
International Securtty, Inc. (Holiday International), and its Chief Financial
Officer, Richard Hudec. This fraud alert contained a prior fraud alert issued in
May 2005 by the Social Security Administration Office of the Inspector General
(SSA DIG) concerning Mr. Hudec. The SSA DIG memorandum detailed a strtng
of crim1nal convictions and civil judgments against Mr. Hudec occurring over a
12-year pertod, aU of which were related to fraud. 3 The final civil judgment




       2 The USMS Office of secur1ty Contracts is responsible for awarding and managtng the
CSO contracts. The Office of General Counsel rtViews vendor selections and other legal
matters related to the CSO contracts In order to protect the USMS's interests.

       3 The SSA OIG fraud alert identified the following incidents of fraud committed by
Mr. Hudec:
    1. In 1990. Mr. Hudec pled guilty to mail fraud for submJtting a false Insurance claim. He
      was placed on 5 years probation and ordered to make restitution of 527.139.
   2. In 1991, Mr. Hudec pled guilty to mail fraud for submitting another false: insurance
      claim. He was sentenced to 6 months in prison and 5 years of probation.
   3. In 1998, Mr. Hudec pled gu1lty to bank fraud for falsifying documents, forging
      signatures on a check, and depoSiting the check Into an account from which he
      withdrew the money. He was sentenced to 28 months in prison, followed by 5 years of
      supervised release, and ordered to pay $168,000.

                                             -3-




                                          - 39 ­
occurred in March 2002. According to the SSA OIG's fraud alert. Mr. Hudec
held various executive positions.in USProtect since 2001. including Chief
Financial Officer. The alert ended with the following advisory statement: "'The
Purpose of this memo is to make you aware of this Issue and recommend you
review any contracts you may have with USProtect for potential fraud. such as
false statements."

      The FAR Subpart J5.305(a}(2)(iii) requires that the evaluation of
prospective vendors "should take into account past perfonnance information
regarding predecessor companies, key persoIUlel who have relevant experience
.... " According to the fraud alert. Mr. Hudec had been a principle in Holiday
International. The alert noted that Mr. Hudec's wife purchased 100 percent of
that company's assets and renamed the company USProtect Corporation.
Further. the fraud alert indicated that Mr. Hudec continued to hold various
management positions in USProtect.

        Despite these facts, we found no evidence in our review of USMS's
contract rues and interviews with USMS persoIUlel of any research conducted
on HoUday International or its key personnel, including Mr. Hudec. Instead,
we found that the USMS officials responsIble for awarding the contract
accepted at face value USProtect's statement that Mr. Hudec was not involved
in any way with the company owned by his spouse, even though USProtect's
statement was contradicted by the fraud alert's statement that Mr. Hudec
continued to hold various management positions in USProtect. We believe that
the fraud alert forwarded by the DOJ OIG warranted a review of USProtect and
its predecessor company, Holiday International. If such a review were
performed. it would have become apparent to the USMS that the prtnc1pal
officers with Holiday International remained active with USProtect. This
information would have provided Justification to award the contract to another
vendor, avoiding the situation that occurred in March 2008 when USProtect
ftled for bankruptcy protection after the USMS did not renew its contracts,
leaving many CSOs without compensation for their services.

Determination oj ResponsibUity

       The FAR Subpart 9.105-1 requires that "before making a detennlnation
of responsibility, the Contracting Officer shall possess or obtain information
sufficient to be satisfied that a prospective contractor currently meets the




   4. In Aprtl 1999. Mr. Hudec had five civil judgments entered against him for receiving
      money. services, and credit based on false pretenses. false representations, and actual
      fraud. The five civil Judgments amounted to a total of$I.282,016 In favor of five banks.
   5. In March 2002, Mr. Hudec had a ciVil judgment entered against tum for $191.437 In
      favor of a bank.

                                            - 4-




                                         - 40 ­
appl1cable standards in 9.104."4 We found that the Office of Secw1ty Contracts
lacked sufficient information to make a Mdetenninatlon of responsibility" for
USProtect, and therefore lacked the proper Justification for awarding the eso
contracts to USProtect. Given the severity of the charges contained in the OIG
fraud alert and Mr. Hudec's suspected involvement in USProtect's operations.
the USMS Contracting Officer should have obtained more information
regarding Mr. Hudec's involvement with the company and its principles before
making a detennination of responsibility.

       According to the USMS Contracting Officer. during contract negotiations
she requested from USProtect an explanation as to whether Mr. Hudec was
involved with the company. The Contractlng Officer received in response a
written statement from USProtect stating "Mr. Hudec is the Spouse of
USProtect's 100% shareholder. Mr. Hudec Is not a corporate officer or
employee of USProtect Corporation." Based on this short disavowal of
Mr. Hudec's involvement in USProtect, the Contracting Officer dismissed the
infonnation in the OIG's and SSA OIG's fraud alerts. No further
documentation was requested by the Office of Securtty Contracts or the Office
of General Counsel, nor was any provided by USProtect. Further, we
detennined through interviews with the USMS Contracting Officer and
Assodate General Counsel that neither the Office of General Counsel nor the
Office of Secw1ty Contracts contacted the OIG or the SSA OIG regarding the
infonnation contained In the fraud alert. Given the sedous nature of the
infonnation and the concerns regarding potential fraud Including false
statements. we believe that the USMS should have requested additional
infonnation in order to protect the USMS's interest and ensure that the
company was responsible.


          4 The FAR Subpart 9.104 Includes the following general standards: To be detennined
responsible, a prospective contractor must-
    laI . Have adequate flnandal resources to perform the contract, or the ability to obtain them;
    (b). Be able to comply with the required or proposed dcl1very or performance schedule,
          taking into consideration all existing commercial and governmental business
          commitments;
    tc). Have a satisfactory performance record. A prospective contractor shall not be
          detennined responsible or nonresponslble solely on the basis of a lack of relevant
          performance histoty, except as prOVided In 9. 104-2;
    (d). Have a satisfactory record of integrtty and business ethics.
    (e). Have the necessary organIZation, experience, accounting and operational controls, and
          technical skills, or the ability to obtain them (Including, as appropriate, such elements
          as production control procedures, property control systems, quality assurance
          measures, and safety programs applicable to materials to be produced or services to be
          performed by the prospective contractor and s ubcontractors).
    (f), Have the necessary production, construction, and technical equipment and facilities, or
          the ability to obtain them; and
    (g). Be otherwise qualified and eligible to receive an award under applicable laws and
          regulations.


                                               -5-




                                         - 41 ­
       Further. the Office of Securtty Contracts disregarded internal concerns
raised during a pre-solicitation review conducted by the USMS Procurement
Policy Oversight Team (PPO'O. USMS Procurement Policy 04-1 requires that all
solicitations, invitation for bIds, and request for quotations with a toW life cOst
over $100,000 be reviewed by the PPOT prtor to execution. In addition, the
same USMS policy requires that all actions with a life cycle cost over $500,000
be reviewed first by PPOT and then by the USMS Office of General Counsel.
The three CSO solicitations ranged in value from $94 m1ll1on to $128 m1ll1on,
and thus each was valued at well over $500,000. 5 The purpose of the PPOT
review is to ensure the USMS complies with the FAR and internal USMS
policies before the USMS awards a contract. As part of the PPOT, the USMS
Procurement Chief reviews contracts and solicitations for potential concerns
and issues a memorandum to the Contracting Officer that includes, if
necessary. findings and recommendations that need to ~ addressed in writing
before the Contracting Officer awards the contract. 6

       The PPOT completed its review of the three solicitations and issued to the
Office of Securtty Contracts Its wrttten findings in a memorandum, dated
September 21,2006, ::>lgnw by the USMS Procurement Chief. 1b1s
memorandum titled. ~Pre-Solicitat1o n Review for contract DJMS-07-DooOl,
0002, and 0003 3M, 5 th & 12th Circuit Contracts for CSOS.~ detailed eight
Significant issues that should have precluded a "determination of
responsibility~ for USProtect. The memorandum referenced the FAR Subpart
9.103, which requires that, "in absence of information clearly indicating that
the prospective contractor is responsible, the Contracting Officer shall make a
detenninatlon oCnon-responslbility."

       Specifically, the PPOTs memorandum questioned the lack of information
used to make a determination of responsibility regarding USProtect. The
memorandum stated that USProtect's "self-serving statement" was not
suffiCient to address the concerns raised in the OIG fraud alert. Our file review
found no indication that the PPOTs qmcems were addressed by the Office of
Securtty Contracts or the Office of General Counselor that these offices
followed up on the fraud alert. The USMS's procurement poliCies require that,
~Contracttng officers/Contract Specialists must address all findings either by
making the necessary changes or by preparing written Justification for not
accepting the findings. The written Justifications will cite applicable poliCies,
regulations, and/or status.- Further the policy requires that. "(blefore

       5 The solicitaUon for the 3'" Circuit had an Independent Government Cost Estimate
(IGCEi totaling approximately $107 million for the 5-year life of the contract. Further, the
IGCE for the 51b Circuit totaled. over $128 mIllion and the 12th Circuit totaled. approximately
_ow_
$94 million. Therefore, all three solicitations required PPOT and Office of General COWlsel


        6 USMS Procurement Policy 04-1 requires that PPOT findings need to be addressed In
writing. but there Is no requirement for the written response to be provided. back to the PPOr.

                                               -6-




                                            - 42 ­
proceeding with the action, the file must contain a copy of the findings,
documentation of the changes made, and the written approval for the
Contracting Officer's/Contract SpecIallst's supetvisor for any dedsion not to
accept a finding or findings.· We reviewed all of the solidtation and award files
and found no written response, Justlftcatlon, or approval by the Contracting
Officer's supetvisor to disregard PPOT findings as required by the USMS's
procurement policies.

       With regard to the Associate General Counsel's review, we were unable to
verify whether it received a copy of the PPOT memorandum prior to its
determination that there were ~no legaltmped1ments" to awarding the CSO
contracts to USProtect. The Associate General Counsel stated that he nonnally
would receive the PPOT review with the file, but could not recall whether he
had reviewed the PPOT memorandum for the USProtect contracts. An e-ma1I
confinns that the USMS AssocIate General Counsel provided approval of the
contract on the morning of September 22, 2006, after asking If the PPOT review
had been completed on September 21,2006. However, there was no indication
that the USMS Office of General Counsel received or reviewed the PPDrs
review prior to conununicatlng his approval to award the contracts. According
to the USMS Procurement Chief, she indicated that she had not been contacted
by the Office of General Counsel to discuss her findings.

      The legal concerns raised In the PPOT memorandum should have alerted
the Office of General Counsel and prompted the AssocIate General Counsel to
look into this matter before giving his concurrence on USProtect's selection for
the three CSO Contracts. The only documentation we found in our file review
showing any Involvement from the Office of General Counsel were: (1) a
Memorandum For Record prepared by the Office of Security Contracts and
edited by the Associate General Counsel before the PPOT conducted its review,
which included Instructions from the Associate General Counsel for the Office
of Security Contracts to seek additional clartfication on Mr. Hudec's
Involvement with USProtect; and (2) an email sent after the PPOT review from
the Associate General Counsel to the Contracting Officer stating that the
Associate General Counsel saw no legal impediment to awarding the contract
to USProtect.

      The failure to address and further research each of the issues detailed In
the PPOT memorandum issued by the USMS Procurement Chief raises serious
concerns about the USMS's court security procurement process. In this
instance, there were Incidents of fraud that were not taken into consideration
by USMS staff before awarding the three contracts totallng approximately
$300 million to USProtect. Based on the lack. of documentation and the
responses we received during our interviews, we believe that the USMS did not
conduct a proper investigation or background research on USProtect. Also, the
USMS Office of Security Contracts did not properly address the concerns raised
in the PPOT memorandum. Had these actions been taken, there would have
                                      -7-




                                    - 43 ­
been sufficient justification to select another vendor, .thereby avoiding the
financial and security risks assocIated with the collapse of USProtect.

      As a result, we found that the USMS did not exerdse due diligence In its
awarding of CSO contracts for the 3 rd , 5 th, and 12th Judicial Circuits to
USProtect. In our judgment, the Office of Security Contracts and the Office of
General Counsel dismissed without sufficient research serious concerns raised
by the DIG fraud alert and the USMS's PPOT regarding the USMS Contracting
Officer's detennination of responsibility. In not acting upon the concerns that
were raised, the Office of Security Contracts chose to rely on USProtect's self­
serving statement, which was Insufficient justification for awarding the
contracts.

USProtect'. Price wu Insufficient to Cover Program Coats

      The FAR requires that contracting officers perform a cost estimate to
ensure that the vendors' bids and proposed costs are sufficient to cover the
cost of the program and perform the services they are contracting to perform.
The FAR Subpart 15.305 states, in part, "[w)hen contracting on a oost­
relmbursement basis, evaluations shall include a cost realism analysis to
detennine what the Government should realistically expect to pay for the
proposed effort, the offeror's understanding of the work, and the offeror's ability
to perform the contract." The CSO contracts are bid as cost reimbursement
contracts.

       We interviewed USMS officials who were involved with the evaluation and
selection process for the three USProtect contracts. In addition, we reviewed
the evaluation documents and pricing information that were contained in the
solicitation files. As result of our preliminary review, we found that there was
Significant concern raised within the USMS over whether USProtect's bids were
too low to cover their costs, based on USMS knowledge of and experience with
the CSO program. However, we found no evidence that the Office of Security
Contracts adequately addressed these Issues prior to awarding the contracts to
USProtect.

      We reviewed the Technical and Price Negotiation Memorandum written
by the Contracting Officer, dated September 14, 2006, in which the
Contracting Officer stated repeatedly that USProtect's quoted start up costs
were lower than the competing bids and were too low to cover actual start-up
costs for all three Judicial Circuits. USProtect's bids on the three Judicial
Circuits were well below both the Independent Government Cost Estimates
(lGCE) and the bids submitted by competing vendors. USProtect's bid prices
were apprOximately $4 million to $7 million less than the other bids received In
each of the three circuits. The other two vendors were familiar with the costs
of the program because they had prior experience with CSO contracts;
USProtect had no previous experience with the CSO Program.
                                       -8 -




                                    - 44 ­
      The Contracting Officer believed that USProtect's bid was insufficient to
cover the costs of the program. In addition, the fonner Chief of the Office of
Court Secw1ty Indicated that the bids should be close to one another because
the only varlable costs associated with the contracts were administrative
overhead and profit. He further stated that USProtect's resulting financial
problems may have stenuned from providing overly low bids.

       The Contracting Officer stated, after further negotiations with USProtect,
that the company was confident that its start-up rates were sufficient. despite
the concerns raised in her Technical and Price Negotiation Memorandum,
dated September 14, 2006. The Contracting Officer accepted USProtect's cla1m
that its prices were adequate and ultimately awarded the contract to USProtect.
As with questions regarding Mr. Hudec's involvement with the company, the
Office of Security Contracts again relied on self-serving statements from
USProtect and diSmissed legitimate concerns about USProtect's ability to
provide contracted services at its overly low bid price.

      We believe that the difference in amounts between USProtect's bids and
competing bids was cause for serious concern regarding whether USProtect
Wlderstood the requirements of the contract and If it had the financial means
to cover the costs to run the CSO Program in each Judicial Circuit for which it
bid. Yet, USProtect was awarded the CSO Contracts in all three circuits
despite the Contracting Officer's concerns about the inadequate contract price,
unanswered concerns by the ppm, and an OIG fraud alert. The acceptance of
the comparatively low bid prices despite these multiple indicators of problems
raises concerns about the evaluation and award process conducted by the
USMS Office of Security Contracts.

Technical Evaluation Board Lacked EvIdence of a Thorough Review

       The purpose of a Technical Evaluation Board tTEB) review is to provide
the Contracting Officer with the infonnation necessary to make the best
selection possible. We examined the work perfonned by the TEB that led to the
selection of USProtect. Specifically, we reviewed the individual rating sheets
completed by each of the team members. We found that the review was not
well-documented and that the TEB was not provided all relevant information.
As a result, the TEB falled to point out Significant weaknesses with USProtect
that may have led to the selection of more qualifted vendors.

      The FAR Subpart 15.303(blllJ states that "(tJhe selection authority shall
establish an evaluation team, tailored for the particular acquisition, that
includes appropriate contracting, legal, logistics, tectmical, and other expertise
to ensure a comprehensive evaluation of offers." In this instance the


                                       ·9 .




                                     - 45 ­
Contracting Officer was the selection authority, and she appointed five USMS
employees to serve on the TEB. 7 The lEB met from June 5. 2006, through
June 16, 2006, at USMS Headquarters In Arlington, Vlrgtola, to review the
initial bid responses. The board reconvened via teleconference on August 29,
2006.

       Each of the three vendors was evaluated based on three criteria weighted
on a 100-point scoring system: (1) past performance weighted at 45 points.
(2) contract management at 35 points, and (3) technical ab1l1ty to meet the
requirements in the statement of work at 20 points. The members of the TEB
rated each vendor and gave them a score for each criterion. In addition, the
evaluation fonns provided space to document strengths, weaknesses,
deficiencies, and clarlflcations, However, we found that In many instances,
even though USProtect did not receive the full points allowed for a particular
criteria, the evaluation fonn contained no explanation of any deficiencies or
weaknesses that would cause a lower than maximum score for that criteria.

       Further, the written evaluations contained no references to the OIG fraud
alert. In addition, the Contracting Officer confinned that the fraud alert was .
not given to members of the TEB at any time during their evaluation process.
WhUe the initial meeting of the lEB took place prior to the DIG's issuance of
the fraud alert in July 2006. the USMS was in possession of this informatlon
prior to the TES's follow-up meeting on August 29, 2006. This information
should have been provided to the TEB since the Fraud Alert should have been
taken into account in scoring the contractor for past performance and contract
management.

Conclusion

       We reviewed the USMS's awarding of CSO contracts to USProtect and
identified. significant concerns with its procurement process. We believe that
these concerns stem from USMS's lack of adherence to the FAR and its own
procurement policies. 1h1s lack of adherence to established policies and
regulations resulted in the USMS' s selection of USProtect as being the "best
value" to the government despite ample and persuasive evidence to the
contrary.

       Specifically. we found a significant failure on the part of the USMS's
Office of Securtty Contract's and Office of General Counsel to exercise due
diligence in following up on the DIG fraud alert issued 2 months prior to the
awarding of the contracts. Further, we do not believe that the USMS
conducted the necessary research on USProtect that was required by the FAR,
nor did it gather the necessary information to be able to determine whether

      7 The board consisted or a U.S. Marshal, a Chief Deputy U.S. Marshal, two Deputy
U.S. Marshals, and one employee from the USMS Judicial Security Division.

                                          - 10-




                                        - 46 ­
USProtect was a responsible vendor. Also, the USMS fa1Ied to address In
writing, as It was required to do, concerns from the USMS Procurement Chief
related to Its selection of USProtect. In addition, despite the fact that the
Contracting Officer ident1fled USProtect's bids as being unrealistically low, the
contract was awarded to USProtect. Lastly, the Technical Evaluation Board
failed to adequately document its review of USProtect and the Contracting
Officer failed to make the OIG fraud alert available to the Board for use in its
evaluation of the contractor,

        We believe that these failures on the part of the USMS led to three eso
contracts being awarded to USProtect, a less than responsible vendor that
ultimately collapsed. USProtect's collapse placed the security of many court
facilities at risk, something that could have been avoided had the USMS
performed its due diligence and adhered to established policies and
regulations. It also led to many CSOs not receiving timely payment for their
serv:ices because the vendor flIed bankruptcy. We recommend that the USMS
implement inunediate corrective action to address the concerns contained in
this memorandum and ensure that the solicitation and award process to
replace the soon·to-expire CSO contracts for the 12 JudiCial Circuits are
properly handled In accordance with the FAR and its procurement policies.


cc:   Michael J. Prout
      Assistant Director
      Judicial Securtty Division
      United States Marshals Service

      Steven Conboy
      Deputy Assistant Director
      Judicial. Securtty Division
      uri.tted States Marshals Service

      Gerald M. Auerbach
      General Counsel
      United States Marshals Service

      Anita K. Maldon
      Procurement Chief, Procurement Office
      United States Marshals Service

      Isabel Howell
      Audit Liaison
      United States Marshals Service




                                      - 11 -




                                    - 47 ­
James W. Johnston
Director, Procurement Support Staff
Justice Management Dlvtsion

Richard P. Theis
Assistant Director
Aud.1t L1a1son Group
Justice Management Dlvtsion




                              - 12 -




                           - 48 ­
                                                     u.s. Department of Justi<:e
                                                     United States MarshaJs Service

                                                     Office of the Director


                                                     IIWhingron, DC 2053()'J()()()



                                                     July 28, 2009


      MEMORANDUM TO:          Raymond J. Beaudet
                              Assistant Inspector General
                               for Audit

                   FROM:      John F. Clark..., /J ~
                              Director      ~y
               SUBJECT:       Immediate Improvements Necessary for the Judicial Security
                              Division's Court Security Procurement Process

        'This memorandum is in response to your June 17,2009, memorandum rcgarding issues
identified during thc course of the ongoing Office of the inspector General (OIG) audit of the
United States Marshals Service (USMS), Judicial Security Division, court security procuremcnt
process. The USMS has considered your concerns related to a contract award from 2006, and
agrees that immediate improvement of the court security procurement process is imperative.
in the past few months, the USMS has developed and implemented new mC8SUfCS to cnsure that
selections for future court security procurements are executed in a more judicious manner.
Specific responses to each of the concerns outlined in your memorandum are described in the
attached document.

       These corrective actions will improve the USMS court security procurcmcnt process.
Should you have any questions or concerns about this matter, please contact Assistant Director
Michael Prout at 202· 307· 9500.

Attachment

cc:     David 1. Gaschke
        Regional Audit Manager
        San Francisco Regional Audit Office
        Office of the Inspector General

        Michael J. Prout
        Assistant Director
        Judicial Security Division

        Isabel Howell
        Audit Liaison




                                              - 49 ­
James W. Johnston
Director, Procurement Support Staff
Justice Management Division

Richard P. Theis
Assistant Director, Audit Liaison Group
Justice Management Group




                                      - 50 ­
Lack of Due Diligence in USMS Backr:round Research

         Procurement officials will diligently comply with all USMS procurement policies and
procedures. The Contracting Officer (CO) or source selection aUlhority will share all relevant
information and concerns with members of the technical evaluation board. Counsel and advice
will also be sought from authorized program, procurement, and legal officials prior 10 award.
In the event Ihe decision of the CO or source selection authority differs from the USMS
Procurement Policy and Oversight Team's findings, the CO will address concerns or
recommendations by making the necessary changes, or by preparing writtcnjustification 10
explain why the concerns or recommendations were not accepted. When feasible, all involved
parties will meet to discuss and resolve any differences. Precautionary measures have also been
set in place to ensure suitability of key contract officials. Effective immediately, all futurc court
security solicitations will requirc key personnel, including corporate officials and shareholders in
closely held corporations, to Wldergo and pass a limited backgroWld investigation prior to final
award.

USProtect's Price was Insufficient to Cover Proa;ram Cost

        In retrospect, the USMS agrees that USProtect's price was insufficient to perform the
requirements of the contract, and that the CO should have u.<;ed bencr judgment in this area.
Since that time, the USMS has hired a more experienced CO to manage and administcr thc
Office of Security Contracts. We are confident that the current CO will exereise extremc caution
in rendering responsible determinations.

Technical Evaluation Board Lacked Evidence of a Thorough Review

        Without revealing specifics of the procurement process, the source selection plan and
new evaluation material have been developed to improve and streamline the evaluation process.
Under the new plan, the technical evaluation board members will be involved in a more
structured process and they will receive clearer guidance and support from the CO and legal
advisors. In addition, all members assigned to the technical evaluation board will receive
training from a qualified procurement instructor before the evaluation process occurs.
The tcchnicaJ evaluation board will receive a comprehensive briefing to ensure that they
understand thcir role and responsibility during the source selection process. Each member of the
technical evaJuation board will also be granted adequate time to review and familiarize
themselves with the solicitation, the source selection plan, and the evaluation material. The CO
and a legal advisor have also been directed 10 work closely with the members during the entire
evaJualion process.




                                               - 51 ­
                                                                                                  APPENDIX IV


             USMS RESPONSE TO THE DRAFT REPORT


     • • •• •

                .
•
                                                        U.S. Department of Justice
.:      r,      ".

 K,.."...                                               United States Marshals Service

                                                        q Uke ofIhe A S,W){.: illll!   OireClOr


                                                        AIt'xandria, I'irg i/, /o 2230/·1025


                                                       October 29, 2010



     MEMORANDUM TO:             Raymond 1. Beaudet
                                Assistant inspector General     7
                       FROM:    R::u:;:;non I I I - A
                                Associate Director   I \'1.' ~--..~_
                                 for Operations

                     SUBJECT:   Response to Draft Audit Report:
                                United States Marshals SCJVice' s Oversight of its
                                ludicial Facilities Security Program


        'Ibe United States Marshals Service (USMS) is statutorily responsible for the security
oflhe Judicial Branch. Based on a longstanding Memorandum of Understanding (MOV) with
the Administrative Office of the United States Courts (AOUSC) and the Federal Protective
Service (FPS). the USMS is also responsible for security at facilit ies housing components of
the United Stales Courts. The security of over 800 facilities, including more than 400 wherc
approximately 5,000 Court SecUJ"ity Officer.; (CSOs) are posted, is of the utmost importance
to the USMS.

        In reviewi ng your report, where you identifY weaknesses related to concerns of the
judiciary for the security of facilities, it is important to highlight a few points that were either
not recognized, or were not included as part of this audit- I appreciate and will direct whatever
action possible to address the concerns of the Chief Judges intctviewcd for the aud it. It is
noteworthy that the USMS is not the detennining party as it relates to the budget for staffing or
physical security. The USMS and the AOUSC work closely to address concerns and risk, and
havc seen progressive and positive increases in budgetary resources. While it is a concern that
three of six Chief Judges intetviewed expressed concern, I am heartened that in a recent audit of
the USMS conducted by your agency (1-2207-0 10), over 85% of judges responding to yOUJ"
survey expressed they were either satisfied, or highly satisfied with their secUJ"ity and the USMS.

        I note and appreciate your emphasis of the necd for an Hl:tive Court Security
Comminee in each district. It is likewise noteworthy that the Court Security Comminee,
which i ~ a requirement of the Judicial Conference of the United States, is led by or responsible
to the Chief District Judge; and while the USMS has a role, it is one of sup port to the Chief




                                               - 52 ­
District Judge. The Chief District Judge is responsible for maintaining an active Court Security
Committee. The USMS will continue to encourage the same across al l districl~.

         The USMS responses to the recommendations contained in the subject draft audit report
are listed below:

Recommendation I : Ensure that all USMS district offices regularly review and update their
Continuity of Operations Plans and ensure that annual security sutveys arc perfonned at each
district and that all judicial security plans are updated as required.

Response (Concur): The Assistant Directors for Judicial Security and Tactical Operations
will emphasize this requirement to all United States Marshals and Chief Deputy United States
Marshals, and will ensure it is a component of the District Audit Program and the annual
District Self Assessment.

The below comments refer only to the Continuity of Operations P lan as referenced throughout
the draft report:

    I. p. iii, notc 4: The note states that HSPD 20 requires that all federal departments and
       agencies maintain a Continuity of Operations Plan. The correct language from NSPD
       51IHSPD 20 source document reads: all executive departments and agencies . ..
       http://www.dhs.gov/xaboutilawslgcI219245380392.shtm#I. This does not change
       the intent ofthe comment or the impact upon the USMS.

   2. p. iv, note 5: The draft report cites Fedcral Preparedness Cireular (FPC) 65 as its
      reference. FPC 65 was superseded by Federal Continuity Directive (FCD) 1, in
      February 2008 (http://www.fema.gov/pdflabout/officeslfcdl.pdO. However, the
      updating requirements did not change with the adoption ofFCO 1.

   3. p. 5, first full paragraph: same as number 1, above.

   4. p. 5, note 18: sameasnumber2,above.

   5. p. 31: same as number 2, above.

The USMS District COOP Templale, Annex A, Section 6.3 states that:

"lbe COOP Program Po int of Contact (POC) develops district COOP plans in accordance with
USMS policies and procedures. The POC perfonns an annual review of the COOP plan and
makes updates and changes as necessary."

Additionally, the annual review is an FCD I requirement that is taught in the USMS COOP
Managers Class, which is available annually to all districts. Since 2007, more than 182 district
and headquarters personnel have completed this training class. Additionally, a template COOP
plan is available for district personnel to utilize that covers all requirements ofFCO 1.




                                             - 53 ­
The Tactical Operations Division, Office of Emergency Management, will continue to support
any USMS district that requests assistance with the preparation, training, testing or exercising of
a COOP plan.

Recommendation 2: Ensure that all of its district offices assign a principal coordinator to the
district Court Sccurity Committee and encourage the local judiciary to lead regular meetings.

Response (Concur): The Assistant Director for Judicial Security will emphasize this
requirement to all United States Marshals.

The existing policy directs the United States Marshal to serve as the principal coordinator, and
for Judicial Security Inspectors to attend and participate in Court Security Committee meetings.
They arc reminded during various training sessions to discuss with the judiciary the need for
those meetings.

Recommendation 3: Ensure that all Judicial Security Inspectors and esos are appropriately
trained before entering on duty. The USMS should also develop a proeess to ensure that all
Judicial Security Inspectors and CSOs are adequately trained on newly deployed screening
systems.

Response (Concur): The USMS selects personnel for the Judicial Security Inspector (JSI)
position in accordance with a merit promotion selection process. Training on the role and duties
of the position is conducted after the regulation required time-period for the promotion. Judicial
Security Inspectors are required to obtain Contracting Officer's Technical Representative
(COTR) certification immediately upon asswning the JSI position. They are also required to
attend in-service training at the next scheduled session. JSIs were also required to complete an
online x-ray operator training course this past fiscal year.

CSOs must currently complete Phase I and fuearms qualification before asswning the duties of a
eso. The Office of Court Security (OCS) has revised the CSO Orientation Program and will
implement the new program in Fiscal Year 20 11 . Under thc revised program, the contractor
must schedule and ensure that every eso complete a 40 hour on-the-job standardized program
as part of Phase I. Upon completion of Phase I requirements, a CSO may then be assigned to
work alone. However, esos will not be permitted to operate any screening equipment until they
have successfully completed the Phase II requirements and have completed a second 40 hour
on-the-job training program specific to screening equipment. Onec a eso has completed all of
the Pha~e II requirements, the eso may be assigned to a post without any duty limitations.
Training on newly deployed screening systems is perfonned by the vendor when installed.

Recommendation 4: Ensure that its district offices perfonn the required quarterly unannounced
tests to detennine ifCSOs are adequately screening visitors, packages, and mail that are
delivered to the courthouse and maintain records of the results.

Response: (Concur): The USMS regularly reminds and encourages its district offices of lhe
requirements of conducting quarterly unannounced facility screening tests. This guidance is
providcd during training sessions, through internal communication, and is containcd in USMS




                                              - 54 ­
Policy Directive lOA, Judicial Facility Security. The USMS has developed an internal database
to maintain and track these records and regularly rev iews the results to identify security
deficiencies.

R ecommenda tion 5: Ensure that all district offices report incident~ and arrests at courthouse
faci lities as requ ired and conduct a coordinated periodic analysis of the data each fiscal year.

Response (Concur): The USMS regularly reminds and encourages its district offices of the
requirements of ensuring the contractor reports and docwnents incidents and arrests at
courthouse facilities. This guidance is provided during training sessions, through intcrnal
communication, and is contained in the post orders and CSO contract. The USMS maintains
these reports in a database and regularly reviews these reports.

The USMS is currentl y developing an internal database which will be used to report, track, and
analyze incidents and arrests that occur at its courthouse facilities.

Recom mendation 6: Continue to evaluate its current contract file maintenance practices and
deve lop procedures to ensure that all necessary docwnentation is maintained in a consistent
manner.

Res ponse (Concur): The USMS has developed procedures necessary to ensure contract file
documentation is maintained in a consistent manner. A contract file checklist is required and
included with every contract action. The checklist will standardize contract files and ensure that
every file is consistent.

R ecommendation 7: Seek to streamline its current timekeeping practices for CSOs.

Res ponse (Concur): The USMS met with the vendors individually to modify the existing time
and attendance fonn used and reported to the USMS. Additionally, the USMS will conduct
training for all Jud icial Security Inspectors in November 2010. During this training, Judicial
Security Inspectors will be reminded of their responsibility for monitoring and approving CSO
work hours.

Rtto mmendation 8: Perform a comprehensive review of its background investigation process
for CSOs and seek to ensure that these investigations are completed in a timely manner.

Respo nse (Concur): The USMS will review the entire process of background investigations
from the request that the investigation be conducted through the adjudication. The USMS
already monitors the receipt of background investigations using a database and sends reminders
when the investigations are overdue. Additionally, the processing of background investigations
is a part of the district's Self-Assessment Guide (SAG), which holds them responsible for timel y
completion.

R ecom men da ti on 9: Develop a method for analyzing its performance violation data to better
understand violat ion trends and potential training needs among its CSO workforce.




                                                - 55 ­
Response (Concur): The USMS has implemented a tracking database spreadsheet for all
perfonnance standard violations. The database allows for sorting of infonTlation to include
contractor name, Circuit., District, perfonnance standard numbers violated, proposed disciplinary
action, et cetera. lbe database can generate reports that will allow for analysis of violation
trends and potential training needs. ·Ibe database will allow the USMS to identify potential
training needs based on documented perfonnance violation trends and other infonnation.

Recommendation 10: Provide additional guidance to district Judicial Security Inspectors to
ensure that all CSO perfonTlance violations are documented and reported to the Office of Court
Security.

Response (Concur): The USMS regularly provides additional guidance to its districts on the
requirements of reporting and documenting perfonnance violations. This guidance is provided
during training sessions, through internal communication, and is stated in the CSO contract.

It is the responsibility of the district Judicial Security Inspector, who serves as the Contracting
Officer's Technical Representative (COTR) for the CSO contract, to ensure that the contractor
remains in compliance with the tenns and conditions of the contract and that the Government
receives full measure of the goods and/or services n:quired of the contract. Additionally, as
required in the CSO contract, the contractor must immediately notify thc Contracting Officer
and the COTR in writing when a CSO cngages in, or is suspected of, violating any of the
perfonnance standards statcd in the contract.

Recommendation 11 : Evaluate its CSO persoJUlel file maintenance practices and develop
procedures to ensure that all nccessary documentation, such as medical and flfeanns
qualifications, is adequately maintained and up to date. In addition, the USMS should assess the
feasibility of implementing an automated system for tracking important dates in thc database to
ensure that CSOs satisfy their qualification requirements in a timely manner.

Response (Concur): The USMS will reevaluate the eso persoJUlel file maintenance to improve
the processing, timeliness, and storage of personnel records. The USMS already monitors
important dates in a database to ensure qualification requirements, but will seek to improve
oversight of these requirements.

Recommendation 12: Require district offices to supervise and verify labor hours claimed by
contractors to help ensure that it is not being over billed under the nationwide security systems
contract.

Response (Concur): The USMS, with the required financial support of the AOUSC, will require
district offices to verify labor hours if the nationwide security sy~tt:ms contract is labor hour
based. The USMS recen tly switched from a Time and Materials type contract to a Firm Fixed
Price type contract, negating the need to track contractor labor hours expended.

Recommenda tion 13: Assess the feasibility of district offices maintaining their own security
system equipment inventories of equipment maintained by the contractor so that comparisons
can be made to the contractor's inventory to avoid Wlwarranted maintenance fees.




                                                - 56 ­
Response (Concur): The USMS \\'ill evaluate options and logistics associated with districts
having some inventory tracking capability. As a partial solution to the inventory issue, the
USMS intends to reduce the nwnber of security equipment items subject to maintenance fees in
the new contract, the solicitation for which is now in development. This approach would also
reduce the burden on district personnel, who are already working beyond available resources
supporting the Judicial Facility Security Program.

Reco mmendation 14: Tmek the oost of repairs for its screcning equipment and the impact of
downtime on court security in order to periodically assess whether a maintenance plan for its
screening equipment would be cost effective.

Response (Concur): The USMS has implemented a methodology for tracking scrccning
equipment repair costs. The USMS will expand that methodology to also collect downtime data,
and will continue to conduct market rcscarch on maintenance plan options.

Recom mendation 15: Require the Office of Security Contracts 10 prepare past perfonnance and
interim evaluations in accordance with the Federal Acquisition Regulation.

Response (Concur): The USMS will prepare past pcrfonnance and interim evaluations in
accordance with FAR Subpart 42.15 - Contractor Perfonnance Information.




                                             - 57 ­
                                                                            APPENDIX V

                 OFFICE OF THE INSPECTOR GENERAL
                ANALYSIS AND SUMMARY OF ACTIONS
                  NECESSARY TO CLOSE THE REPORT

      The OIG provided a draft of this audit report to the United States
Marshals Service (USMS). The USMS response is incorporated in
Appendix IV of this final report. The following provides the OIG analysis of
the response and summary of actions necessary to close the report.

Analysis of USMS Response

        In response to our audit report, the USMS concurred with all of our
recommendations and discussed the actions it will implement in response to
our findings. However, the USMS added to its response specific points that
it felt were not recognized or were not included as part of this audit. We
provide the following reply to these statements, before discussing the
USMS’s specific responses to each of our recommendations and the actions
necessary to close those recommendations.

       In its response, the USMS notes that it is not the determining party as
it relates to the budget for staffing or physical security. The USMS stated
that “the USMS and the [Administrative Office of the United States Courts]
work closely to address concerns and risk, and have seen progressive and
positive increases in budgetary resources.” Our report did note this issue,
stating in the first paragraph that the USMS’s Judicial Facilities Security
Program is administered by the USMS and funded by the federal judiciary.

       The USMS also stated in its response that it was concerned that three
of the six Chief Judges interviewed expressed concern with the security
provided by the USMS, and the USMS referred to another OIG report in
September 2007 (I-2007-010) which reported that over 85 percent of
judges responding to an OIG survey expressed that they were either
satisfied or highly satisfied with their security and the USMS. 40 However, the
prior report was an evaluation of the USMS efforts to improve its capabilities
to assess and react to reported threats to the federal judiciary, not a review
of the general security measures provided at courthouses. In that
evaluation, we asked in a survey whether the judges were generally satisfied
with the USMS performance in protecting federal judges. By contrast, in this
audit we interviewed Chief Judges to determine whether they had specific


      40
           The USMS’s response incorrectly refers to this OIG report as (I-2207-010).


                                           - 58 -
concerns related to the security provided by the USMS at their respective
courthouses.

       The USMS stated in its response that the Court Security Committee “is
led by or responsible to the Chief District Judge; and while the USMS has a
role, it is one of support to the Chief District Judge. The Chief District Judge
is responsible for maintaining an active Court Security Committee.” Our
report acknowledges that the district Court Security Committee is chaired by
the federal judiciary. However, our report also notes that USMS policy
requires the United States Marshal or designee to be the principal
coordinator of the local district Court Security Committee, which advises on
the planning, implementation, and continuous review of the court security
program for each federal judicial facility in the district. Recognizing that the
USMS is not responsible for chairing these committees, our report
recommends that the USMS ensure that it assigns a principal coordinator to
each local committee and encourage the participation of the local judiciary.
We believe that the USMS’s response does not sufficiently recognize the
important role the USMS should play on these Court Security Committees.

Summary of Actions Necessary to Close the Report

 1.   Resolved. The USMS concurred with our recommendation to ensure
      that all USMS district offices regularly review and update their
      Continuity of Operations Plans and ensure that annual security surveys
      are performed at each district and that all judicial security plans are
      updated as required.

      The USMS also stated in its response that the Assistant Directors for
      Judicial Security and Tactical Operations will emphasize these
      requirements to all United States Marshals and Chief Deputy United
      States Marshals, and will ensure it is a component of the District Audit
      Program and the annual District Self Assessment.

      This recommendation can be closed when we receive evidence that the
      requirement to: (1) regularly review and update Continuity of
      Operations Plans, (2) perform annual security surveys, and (3) update
      judicial security plans, are made part of the USMS District Audit
      Program and the annual District Self Assessment. Once updated, the
      USMS should provide us with a copy of its District Audit Program and
      annual District Self Assessment.

      In addition to providing its formal response to recommendation 1, the
      USMS provided technical comments regarding the report references to
      Homeland Security Presidential Directive (HSPD) 20 and Federal


                                     - 59 -
     Preparedness Circular (FPC) 65. Both of these report references
     related to the USMS’s Continuity of Operations Plan obligations. As
     the USMS correctly notes, the OIG’s use of the phrase “federal
     departments and agencies” in the draft report instead of the phrase
     “executive departments and agencies” does not affect the USMS’s
     reported obligations under HSPD 20 or recommendation 1. Further,
     the USMS is correct that FPC 65 was superseded by Federal Continuity
     Directive (FCD) 1. Again, the USMS correctly notes that the updating
     requirement of FPC 65 did not change with the adoption of FCD 1. The
     OIG made these technical edits to the final version of this report.

2.   Resolved. The USMS concurred with our recommendation to ensure
     that all of its district offices assign a principal coordinator to the district
     Court Security Committee and encourage the local judiciary to lead
     regular meetings. The USMS stated in its response that the Assistant
     Director for Judicial Security will emphasize this requirement to all
     United States Marshals and noted its existing policy that directs the
     United States Marshal to serve as the principal coordinator and Judicial
     Security Inspectors to attend and participate in Court Security
     Committee meetings. The USMS added that these individuals are
     reminded during various training sessions to discuss with the judiciary
     the need for those meetings.

     This recommendation can be closed when we receive evidence that all
     USMS district offices have assigned a principal coordinator to the local
     district Court Security Committees and have encouraged the local
     judiciary to lead regular meetings.

3.   Resolved. The USMS concurred with our recommendation to ensure
     that all Judicial Security Inspectors and CSOs are appropriately trained
     before entering on duty. The USMS also concurred that it should
     develop a process to ensure that all Judicial Security Inspectors and
     CSOs are adequately trained on newly deployed screening systems.

     The USMS stated in its response that Judicial Security Inspectors are
     required to obtain Contracting Officer’s Technical Representative
     (COTR) certification immediately upon assuming the Judicial Security
     Inspector position. The USMS also stated that they are required to
     attend in-service training at the next scheduled session. The Judicial
     Security Inspectors were also required to complete an online x-ray
     operator training course this past fiscal year.

     The USMS also responded that the Office of Court Security (OCS) has
     revised the CSO Orientation Program and will implement the new


                                      - 60 -
     program in FY 2011. According to the USMS, training on newly
     deployed screening systems is performed by the vendor when the
     systems are installed.

     This recommendation can be closed when we receive documentation
     supporting that all Judicial Security Inspectors and CSOs are
     adequately trained before entering on duty. Specifically, the USMS
     should provide evidence that all its Judicial Security Inspectors have
     completed the in-service training and the x-ray operator training
     course. The USMS should also provide documentation supporting the
     newly revised CSO Orientation Program, specifically as it pertains to
     training requirements for operating screening equipment. Further, the
     USMS should provide evidence of a process that ensures that all
     vendor-provided training for all newly deployed screening systems is
     conducted in a timely manner.

4.   Resolved. The USMS concurred with our recommendation to ensure
     that its district offices perform the required quarterly unannounced
     tests to determine if CSOs are adequately screening visitors,
     packages, and mail that are delivered to the courthouse and maintain
     records of the results. The USMS stated in its response that it
     regularly reminds and encourages its district offices of these
     requirements and provides guidance through training sessions and
     internal communication. According to the USMS, it has developed an
     internal database to maintain and track these records and regularly
     reviews the results to identify security deficiencies.

     This recommendation can be closed when we receive evidence that the
     USMS provides regular reminders to its district offices, including
     training documentation and correspondence, of the requirement to
     conduct quarterly unannounced facility screening tests. In addition,
     the USMS should provide evidence of the internal database it uses to
     maintain, track, and analyze the results of its quarterly unannounced
     screening tests and provide a detailed description of the analysis it
     performs on these test results.

5.   Resolved. The USMS concurred with our recommendation to ensure
     that all district offices report incidents and arrests at courthouse
     facilities as required and conduct a coordinated periodic analysis of the
     data each fiscal year. According to the USMS’s response, the USMS is
     currently developing an internal database that will be used to report,
     track, and analyze incidents and arrests that occur at its courthouse
     facilities.



                                   - 61 -
     This recommendation can be closed when we receive evidence of the
     USMS’s newly developed internal database that will be used to report,
     track, and analyze incidents and arrests that occur at its courthouse
     facilities. The USMS should also provide the methodology it will use in
     performing the recommended coordinated periodic analysis of the data
     each fiscal year.

6.   Resolved. The USMS concurred with our recommendation to continue
     to evaluate its current contract file maintenance practices and develop
     procedures to ensure that all necessary documentation is maintained
     in a consistent manner. The USMS stated in its response that it has
     developed procedures necessary to ensure contract file documentation
     is maintained in a consistent manner, which includes a contract file
     checklist that will be required and included with every contract action.
     The USMS stated that the checklist will standardize contract files and
     ensure that every file is consistent. This recommendation can be
     closed when we receive a copy of the developed procedures for
     maintaining contract files, including any and all checklists.

7.   Resolved. The USMS concurred with our recommendation to seek to
     streamline its current timekeeping practices for CSOs. The USMS
     stated in its response that it met with the vendors individually to
     modify the existing time and attendance form used and reported to
     the USMS. Additionally, the USMS will conduct training for all Judicial
     Security Inspectors in November 2010. During this training, Judicial
     Security Inspectors will be reminded of their responsibility for
     monitoring and approving CSO work hours.

     This recommendation can be closed when we receive documentation to
     support streamlined timekeeping procedures for CSOs, including a
     modified time and attendance form. In addition, the USMS should
     provide us with documentation of the November 2010 training that
     confirms that Judicial Security Inspectors were trained on their
     responsibility to monitor and approve CSO work hours.

8.   Resolved. The USMS concurred with our recommendation to perform
     a comprehensive review of its background investigation process for
     CSOs and seek to ensure that these investigations are completed in a
     timely manner. The USMS stated in its response that it will review the
     entire process of background investigations from the request that the
     investigation be conducted through the adjudication.




                                   - 62 -
     This recommendation can be closed when we receive evidence of the
     USMS’s completed review of the background investigation process and
     documentation supporting any changes that result from this review.

9.   Resolved. The USMS concurred with our recommendation to develop
     a method for analyzing its performance violation data to better
     understand violation trends and potential training needs among its
     CSO workforce. The USMS stated in its response that it has
     implemented a tracking database spreadsheet for all performance
     standard violations. According to the USMS, the database can
     generate reports that will allow for analysis of violation trends and
     potential training needs.

     The USMS’s response to our recommendation describes the capabilities
     of its database spreadsheet, but does not state the methodology that
     will be used to analyze performance violation data. We do not believe
     that simply logging performance violation data into a database is
     sufficient. This recommendation can be closed when we receive
     evidence that the USMS has developed a methodology for analyzing its
     performance violation data to better understand violation trends and
     potential training needs among its CSO workforce.

10. Resolved. The USMS concurred with our recommendation to provide
    additional guidance to district Judicial Security Inspectors to ensure
    that all CSO performance violations are documented and reported to
    the Office of Court Security. The USMS stated in its response that it
    regularly provides guidance to its districts on the requirements of
    reporting and documenting performance violations during training
    sessions and through internal communication. The USMS also
    highlighted that this requirement is stated in the CSO contract.

     Further, the USMS also stated in its response that the CSO contractor
     is responsible for reporting to the USMS when it learns that a CSO
     engages in or is suspected of violating any of the performance
     standards stated in the contract.

     We note that our recommendation is specific to instances where the
     USMS first learns of the performance violation. Therefore, this
     recommendation can be closed when the USMS provides additional
     guidance to its Judicial Security Inspectors to ensure that all CSO
     performance violations are documented and reported to the Office of
     Court Security. Further, the USMS should provide evidence that the
     Judicial Security Inspectors, as the COTRs on the CSO contracts, have



                                  - 63 -
    been provided with the relevant provisions of the CSO contract related
    to procedures for reporting CSO performance violations.

11. Resolved. The USMS concurred with our recommendation to evaluate
    its CSO personnel file maintenance practices and develop procedures
    to ensure that all necessary documentation, such as medical and
    firearms qualifications, is adequately maintained and up to date. The
    USMS also concurred that it should assess the feasibility of
    implementing an automated system for tracking important dates in the
    database to ensure that CSOs satisfy their qualification requirements
    in a timely manner. The USMS stated in its response that it will
    reevaluate its CSO personnel file maintenance to improve the
    processing, timeliness, and storage of personnel records.

    This recommendation can be closed when we receive evidence that the
    USMS has improved its CSO personnel file maintenance practices and
    developed procedures that ensure all necessary documents, such as
    medical and firearm qualifications, are being maintained and are up to
    date. Further, the USMS should provide evidence that it has assessed
    the feasibility of implementing an automated system for tracking
    important dates in its CSO database to ensure that CSOs satisfy their
    qualification requirements in a timely manner. If the USMS’s tracking
    of dates has already been automated, then it should provide evidence
    of that change.

12. Resolved. The USMS concurred with our recommendation to require
    district offices to supervise and verify labor hours claimed by
    contractors to help ensure that it is not being over billed under the
    nationwide security systems contract. The USMS stated in its
    response that it recently switched from a time and materials type
    contract to a firm fixed price type contract, negating the need to track
    contractor labor hours expended.

    This recommendation can be closed when we receive documentation to
    support the USMS’s switch from a time and materials type contract to
    a firm fixed price nationwide security systems contract. Further, the
    USMS should provide evidence that there is no labor hour component
    in its current nationwide security systems contract. If the nationwide
    security system contract has any elements that are based on labor
    hours, the USMS should provide evidence that it has required district
    offices to verify labor hours that are charged to the USMS and that
    district offices are complying with that requirement.




                                  - 64 -
13. Resolved. The USMS concurred with our recommendation to assess
    the feasibility of district offices maintaining their own security system
    equipment inventories of equipment maintained by the contractor so
    that comparisons can be made to the contractor’s inventory to avoid
    unwarranted maintenance fees. The USMS stated in its response that
    it will evaluate options and logistics associated with districts having
    some inventory tracking capability. As a partial solution to the
    inventory issue, the USMS intends to reduce the number of security
    equipment items subject to maintenance fees in the new contract, the
    solicitation for which is in development. According to the USMS, a
    reduction in the number of security equipment items that are subject
    to maintenance fees would reduce the burden on district personnel.

      This recommendation can be closed when we receive the detailed
      results of the USMS’s evaluation of its district offices’ inventory
      tracking capability. Additionally, the USMS should provide a copy of
      the new contract when finalized showing any reduction in the number
      of security equipment items subject to maintenance fees compared to
      the previous contract and identify the resulting savings.

14. Resolved. The USMS concurred with our recommendation to track
    the cost of repairs for its screening equipment and the impact of
    downtime on court security in order to periodically assess whether a
    maintenance plan for its screening equipment would be cost effective.
    The USMS stated in its response that it has implemented a
    methodology for tracking screening equipment repair costs. The USMS
    will expand this methodology to also collect downtime data, and will
    continue to conduct market research on maintenance plan options.
    This recommendation can be closed when we receive documentation
    that supports the USMS’s tracking of screening equipment repair costs
    and downtime data. Further, the USMS should provide us with
    evidence that it has been evaluating maintenance plan options.

15.   Resolved. The USMS concurred with our recommendation to require
      the Office of Security Contracts to prepare past performance and
      interim evaluations in accordance with the Federal Acquisition
      Regulation. The USMS stated in its response that it will prepare past
      performance and interim evaluations in accordance with Federal
      Acquisition Regulation Subpart 42.15 – Contractor Performance
      Information. This recommendation can be closed when we receive
      evidence that the USMS’s Office of Security Contracts has prepared
      past performance and interim evaluations on its contractors in
      accordance with the Federal Acquisition Regulation.



                                   - 65 -
